OFFICE OF INSPECTOR GENERAL


Audit of USAID’s
Financial Statements for
Fiscal Years 2008 and 2007
AUDIT REPORT NO. 0-000-09-001-C
November 14, 2008




WASHINGTON, DC
   Office of Inspector General

   November 14, 2008

   MEMORANDUM

   TO:                  David D. Ostermeyer, Chief Financial Officer

   FROM:                Joseph Farinella, AIG/A /s/

   SUBJECT:             Audit of USAID’s Financial Statements for Fiscal Years 2008 and 2007

   The Office of Inspector General (OIG) is transmitting its report on the Audit of USAID’s Financial
   Statements for Fiscal Years 2008 and 2007. Pursuant to the Government Management Reform
   Act of 1994, USAID is required to prepare consolidated financial statements as of the end of the
   fiscal year. USAID is also required to submit a Performance and Accountability Report,
   including audited financial statements, to the Office of Management and Budget (OMB) and the
   Department of Treasury by November 17, 2008. In accordance with fiscal year 2008
   requirements of OMB Circular A-136, USAID has elected to prepare an alternative Agency
   Financial Report that includes an Agency Head Message, Management’s Discussion and
   Analysis, and a Financial Section.

   The OIG has issued unqualified opinions on each of USAID’s principal financial statements for
   fiscal years 2008 and 2007.

   With respect to internal control, we identified one deficiency that we consider to be a material
   weakness. The material weakness pertains to USAID’s reconciliation of its Fund Balance with
   the U.S. Treasury. Additionally, we identified certain deficiencies in internal control that we
   consider to be significant deficiencies. The significant deficiencies pertain to USAID’s
   (1) accounting for loans receivable, (2) accounting for accounts payable and accrued expenses,
   (3) general ledger posting models, and (4) reconciliation of intragovernmental transactions.

   We noted no instances of substantial noncompliance with Federal financial management
   systems requirements, Federal accounting standards, or U.S. Standard General Ledger at the
   transaction level as a result of our tests required by Section 803(a) of the Federal Financial
   Management Improvement Act of 1996.

   This report contains four recommendations to improve USAID’s internal control over financial
   reporting and the preparation of its annual financial statements.

   We appreciate the cooperation and courtesies that your staff extended to us during the audit.
   The OIG is looking forward to working with you on our audit of the fiscal year 2009 financial
   statements.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

     Audit Objective.......................................................................................................... 2

Independent Auditor’s Report on USAID’s Financial Statements.............................. 3

Report on Internal Control ............................................................................................. 4

     Material Weakness .................................................................................................... 5

     Fund Balance with the U.S. Treasury Remain
     Unreconciled ............................................................................................................... 5

     Significant Deficiencies............................................................................................ 6

     Loan Receivable Reconciliation Process is not
     Adequate..................................................................................................................... 6

     Accounting for Accounts Payable and Accrued
     Expenses Needs Improvement ................................................................................... 8

     The General Ledger Posting Model Contain Errors .................................................... 9

     Intragovernmental Transactions Remain Unreconciled ............................................ 10

     Other Matters........................................................................................................... 11

Report on Compliance with Laws and Regulations................................................... 12

Evaluation of Management Comments ....................................................................... 14

Appendix I – Scope and Methodology ........................................................................ 15

Appendix II – Management Comments ....................................................................... 17

Appendix III – Status of Prior Year Findings and Recommendations...................... 20
SUMMARY OF RESULTS
In our opinion, USAID’s consolidated balance sheets, consolidated statements of
changes in net position, consolidated statements of net cost, and combined statements
of budgetary resources present fairly, in all material respects, the financial position of
USAID as of September 30, 2008, and 2007; and its net cost, net position, and
budgetary resources for the years then ended, in conformity with generally accepted
accounting principles.

We identified one deficiency in internal control that we consider to be a material
weakness, related to USAID’s reconciliation of Fund Balance with the U.S. Treasury.
We also identified four deficiencies in internal control considered to be significant
deficiencies, related to the following aspects of USAID’s management:

   •   Accounting for loans receivables
   •   Accounting for accounts payable and accrued expenses
   •   General ledger posting models weaknesses
   •   Reconciliation of intragovernmental transactions

We noted no instances of substantial noncompliance with Federal financial management
systems requirements, Federal accounting standards, or U.S. Standard General Ledger
at the transaction level as a result of our tests required by Section 803(a) of the Federal
Financial Management Improvement Act.




                                                                                         1
BACKGROUND
USAID was created in 1961 to advance U.S. foreign policy interests by promoting broad-
based sustainable development and providing humanitarian assistance. USAID has
missions in more than 88 countries, 46 of which have full accounting operations with
USAID controllers. For the fiscal year ended September 30, 2008, USAID reported total
budgetary resources of approximately $15 billion.

Pursuant to the Government Management Reform Act of 1994, USAID is required to
submit audited financial statements to the Office of Management and Budget (OMB)
annually. Pursuant to this Act, for fiscal year (FY) 2008, USAID has prepared the
following:

   •   Consolidated Balance Sheet
   •   Consolidated Statement of Changes in Net Position
   •   Consolidated Statement of Net Cost
   •   Combined Statement of Budgetary Resources
   •   Notes to the Principal Financial Statements
   •   Other Required Supplementary Information

AUDIT OBJECTIVE
       Did USAID’s principal financial statements present fairly the assets, liabilities, net
       position, net costs, changes in net position, and budgetary resources for fiscal
       years 2008 and 2007?

In our opinion, the financial statements referred to above present fairly, in all material
respects and in conformity with generally accepted accounting principles, USAID’s
assets, liabilities, and net position; net costs; changes in net position; and budgetary
resources as of September 30, 2008, and 2007, and for the years then ended.

In accordance with Government Auditing Standards, the OIG has also issued reports
(dated November 14, 2008) on our consideration of USAID’s internal control over
financial reporting and on our tests of USAID’s compliance with certain provisions of
laws and regulations. These reports are an integral part of an overall audit conducted in
accordance with Government Auditing Standards and should be read in conjunction with
this report.




                                                                                           2
INDEPENDENT AUDITOR’S
REPORT ON USAID’S
FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheets of USAID as of
September 30, 2008, and 2007, and the consolidated statements of changes in net
position, consolidated statements of net cost, and combined statements of budgetary
resources of USAID for the years ended September 30, 2008, and 2007.

We conducted our audits in accordance with auditing standards generally accepted in
the United States; Generally Accepted Government Auditing Standards issued by the
Comptroller General of the United States; and OMB Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements. Those standards require that we plan
and perform the audit to obtain reasonable assurance that the financial statements are
free of material misstatements. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and the significant estimates made by
management, as well as evaluating the overall financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, and in conformity with U.S. generally accepted accounting principles, USAID’s
assets, liabilities, and net position; net costs; changes in net position; and budgetary
resources as of September 30, 2008, and 2007, and for the years then ended.

Management’s Decision and Analysis and Required Supplementary Information sections
are not a required part of the consolidated financial statements but represent
supplementary information required by OMB Circular A-136, Financial Reporting
Requirements. We have applied certain limited procedures to this information, primarily
consisting of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and
accordingly, we do not express an opinion on it.

In accordance with Generally Accepted Government Auditing Standards, we have also
issued reports, dated November 14, 2008, on our consideration of USAID’s internal
control over financial reporting and on our tests of USAID’s compliance with certain
provisions of laws and regulations. These reports are an integral part of an overall audit
conducted in accordance with Government Auditing Standards and should be read in
conjunction with this report.




USAID, Office of Inspector General
November 14, 2008



                                                                                        3
REPORT ON
INTERNAL CONTROL
We have audited the consolidated balance sheets of USAID as of September 30, 2008,
and 2007. We have also audited the consolidated statements of changes in net position,
consolidated statements of net cost, and combined statements of budgetary resources
for the fiscal years ended September 30, 2008, and 2007, and have issued our report
thereon dated November 14, 2008. We conducted the audits in accordance with
auditing standards generally accepted in the United States; Generally Accepted
Government Auditing Standards issued by the Comptroller General of the United States;
and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

In planning and performing our audits of USAID’s financial statements for the fiscal years
ended September 30, 2008, and 2007, we considered USAID’s internal control over
financial reporting as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial statements, but not for the purpose of expressing
an opinion on the effectiveness of USAID’s internal control. We limited our system of
internal control testing to those controls necessary to achieve the objectives described in
OMB Bulletin 07-04. We did not test all internal controls relevant to operating objectives
as broadly defined by the Federal Managers Financial Integrity Act of 1982 (FMFIA),
such as those controls relevant to ensuring efficient operations. Accordingly, we do not
express an opinion on USAID’s internal control.

Our consideration of internal control was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in internal control
that might be significant deficiencies or material weaknesses. However, as discussed
below, we identified certain deficiencies in internal control that we consider to be
material weaknesses or significant deficiencies.

A material weakness is a significant deficiency, or combination of significant deficiencies,
that results in more than a remote likelihood that a material misstatement of the financial
statements will not be prevented or detected by the entity’s internal control. We
identified one deficiency in internal control that we consider to be a material weakness,
as defined above, relating to reconciliation of Fund Balance with the U.S. Treasury.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions,
to prevent or detect misstatements on a timely basis. A significant deficiency is a control
deficiency or combination of control deficiencies that adversely affects the entity’s ability
to initiate, authorize, record, process, or report financial data reliably in accordance with
generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected by the entity’s internal control. We
consider the following deficiencies to be significant deficiencies in internal control:

   •   Accounting for loans receivables
   •   Accounting for accounts payable and accrued expenses



                                                                                           4
   •   General ledger posting models weaknesses
   •   Reconciliation of intragovernmental transactions

Management’s Decision and Analysis and Required Supplementary Information sections
are not a required part of the consolidated financial statements but represent
supplementary information required by OMB Circular A-136, Financial Reporting
Requirements. We have applied certain limited procedures to this information, primarily
consisting of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and
accordingly, we do not express an opinion on it.

We also noted other matters involving the internal control over financial reporting, which
we reported to USAID management in a separate letter dated November 14, 2008.

Material Weakness
USAID Does Not Reconcile Its Fund Balance with the
U.S. Treasury and Resolve Reconciling Items
(Repeat Finding)

USAID continues to have large unreconciled differences between the Fund Balance
recorded in its financial accounting system and the Fund Balance reported by the U.S.
Department of Treasury throughout FY 2008. As of September 30, 2008, these
differences totaled $38 million ($371 million absolute value) and remained unreconciled
because USAID was not investigating and resolving all the differences and was not
performing reconciliations of its Fund Balance account in accordance with Treasury
Financial Manual (TFM) Volume 1, Part 2-5100. In addition, USAID did not report all
monthly cash disbursements and cash receipts on its Statement of Transactions (SF-
224) that were recorded on its general ledger. Instead, USAID reported only cash
disbursements and cash receipts that were in agreement with those recorded in
Treasury’s system, and thus avoided Treasury’s scrutiny because no differences were
reported by Treasury on the Statement of Differences (SF-6652). Many of the
differences are composed of items that date back several years, and USAID does not
have a system to resolve such differences on a current or retroactive basis. As a result,
USAID recorded adjustments of $38 million at the end of FY 2008 to ensure that its Fund
Balance agreed with what was reported by the U.S. Treasury on its Form 2108, Year
End Closing Statement, without fully documenting and investigating the reasons for the
differences.

U.S. Treasury reconciliation procedures state that an agency may not arbitrarily adjust
its Fund Balance with the U.S. Treasury account, and may only do so after clearly
establishing the causes for any errors and properly correcting those errors. USAID CFO
Bulletin 06-1001, Reconciliations with U.S. Treasury, requires USAID to perform timely
monthly reconciliations with the U.S. Treasury and requires a certification that
reconciliations have been performed in accordance with TFM Volume 1, Part 2-5100.
Bulletin 06-1001 has not been fully implemented by USAID.

Before adjustments, USAID’s reported Fund Balance was $38 million more than the
balance reported by the U.S. Treasury on its September 30, 2008, account statement.
This occurred because USAID does not have a system in place to identify and track


                                                                                        5
differences between its accounting system and the U.S Department of Treasury until
those differences are resolved. As of September 30, 2008, approximately $20.9 million
of cash transactions remained in a suspense status at USAID pending additional
information. The transactions in the suspense account were fully processed at the
Department of Treasury as of the end of FY 2008. USAID could not identify the reasons
for many other differences, including some that have been outstanding for many years.

USAID made some attempts to resolve unreconciled Fund Balance differences, but did
not consistently document its efforts in investigating and resolving the differences. This
issue was reported in a previous audit report. 1 Fund Balance reconciliations with
Treasury are ongoing efforts and we will continue to monitor USAID’s progress with
these reconciliations in future audits.

    Recommendation No. 1: We recommend that USAID’s Chief Financial Officer
    implement a process in accordance with the Supplement to Treasury Financial
    Manual Volume 1, Part 2-5100, section V (A), Periodic Review and Evaluation, to
    perform and document monthly reconciliation of its Fund Balance with Treasury
    account with the U.S. Treasury and to identify, track, and resolve all differences in a
    timely manner.


Significant Deficiencies
USAID’s Process to Reconcile Loans Receivable Is Not
Adequate and Does Not Resolve Differences Between
USAID and Its Loan Services Provider
USAID’s process for reconciling its loans receivable differences generated from the
interface between its general ledger (Phoenix) and the subsidiary ledger maintained by
the Midland Loan Services Division of PNC Bank (Midland) Enterprise Loan System
(ELS) needs improvement. At the end of each month, Midland activates the interface
with the Phoenix system to record USAID loan activity for the preceding month. This
interface is necessary because the Phoenix accounting system does not use the same
accounting identification information for the loans that are recorded in and maintained by
Midland’s ELS. During our review of the loans receivable balances, we identified several
differences between the two systems that were not reconciled. These differences
occurred for the following reasons:

     1. Some differences were due to errors in the General Ledger Transaction Interface
        Table (translation table) in the Phoenix accounting system that was not updated
        to capture all relevant loans receivable transactions recorded in the ELS.

     2. Other differences were caused by a valid business process rule used by Midland
        to record restructured loans in accordance with the bilateral agreement. When
        loans are restructured or written off, Midland modifies the corresponding loan
        information in its ELS. However, USAID does not modify the loan information in

1
 Report on the Audit of USAID’s Financial Statements for Fiscal Years 2007 and 2006, p. 6,
November 14, 2007, http://www.usaid.gov/oig/public/fy08rpts/0-000-08-001-c.pdf.



                                                                                             6
       its Phoenix accounting system until updated information and approvals relating to
       the restructured loan are received from the U.S. Treasury and OMB.

As a result, we identified certain credit program activities that were recorded by Midland
in accordance with the bilateral agreement but were not recorded in USAID’s Phoenix
accounting system. Because USAID did not reconcile the loans receivable balances in
its Phoenix accounting system with the balances maintained by Midland’s ELS, we
identified differences of approximately $241 million between USAID’s Phoenix
accounting system and Midland’s ELS that required adjustments to present more reliable
loans receivable balances at fiscal year end.

Generally Accepted Accounting Principles require that the sum of the account balances
in the subsidiary ledger equal the total of each line item in the general ledger at the end
of each accounting period. Also, Federal Accounting Standards Advisory Board,
Technical Release No. 6, states that the Agency should have an audit trail from
individual transactions in the subsidiary ledger to the general ledger. This will ensure
that cash transactions can be identified by type so that they may be further identified by
subsidy expense component.

USAID has contracted with Midland to service its loan portfolio and to maintain accurate
loan balances. Midland processes USAID’s loans receivable transactions in ELS and
runs a monthly interface between ELS and Phoenix to ensure that the information in ELS
agrees with the information in Phoenix. For each transaction, Midland converts ELS
transaction codes into Phoenix transaction codes. The converted codes are used to
upload loans receivable data into Phoenix based on a general ledger translation table
created by USAID. If the translation table is not updated and maintained, USAID cannot
correctly upload all of the Midland loan transactions to the Phoenix accounting system.

We noted that USAID has conducted some reconciliation of its loans receivable with
Midland’s balances and identified several differences between rescheduled loan
balances reported by Midland and those recorded in the Phoenix accounting system.
Although USAID has taken steps to update the Phoenix translation table, it cannot
correct all the discrepancies identified above until USAID receives the subsidies for the
related restructured loans from the U.S. Treasury.

We also observed that Midland Loan Services followed the procedures outlined in the
bilateral agreement and wrote off several loans when the bilateral agreement was
entered into force by Congress’s action or inaction 30 days after the agreement was
made between the U.S. Government and the borrower. USAID could not write off those
loans in its Phoenix accounting system because it did not receive the corresponding
approval from OMB and the subsidy from the Department of Treasury. Therefore,
reconciliation between Phoenix and Midland’s ELS is necessary to identify the
differences and resolve them when appropriate information becomes available. If the
interface process does not properly update the Phoenix general ledger for the ELS
transactions, the financial statement balances may be misstated. Additionally, USAID’s
Office of the Chief Financial Officer should ensure that its Washington Financial Services
Division and its Central Accounting and Reporting Division coordinate the process of
authorizing and recording loan subsidy activity. Because USAID’s reconciliation process
does not resolve all differences between USAID and its loan services provider, we are
including the following recommendation:



                                                                                         7
    Recommendation No. 2: We recommend that USAID’s Office of the Chief Financial
    Officer implement procedures to reconcile loans receivable balances in Phoenix
    with the loans receivable balances in Midland’s Enterprise Loan System and to
    investigate and resolve differences in a timely manner.

Controls to Estimate and Record Accrued Expenses and
Accounts Payable Are Not Operating Effectively
USAID’s methodology for estimating and recording accounts payable and accrued
expenses using cognizant technical officer (CTO) reviews of the information contained in
the Accrual Reporting System 2 is not operating effectively. Specifically, we found that
CTOs were not reviewing and accurately recording the estimated amounts for quarterly
accounts payable and accrued expenses in the general ledger. USAID estimates its
accounts payable and accrued expenses using its Accrual Reporting System, which
generates estimated accrual amounts that the CTOs must modify or approve and then
record in the general ledger. However, the estimated pipeline amounts (which are
significantly higher) were recorded as amounts accrued, instead of the estimated accrual
amounts calculated by the Accrual Reporting System. From a randomly selected
sample of 53 estimated accruals reviewed, we noted that 14 of the 53 items (26 percent)
were incorrectly recorded in the general ledger, resulting in an overstatement of
approximately $92 million that was not discovered by the responsible CTOs. This
occurred because CTOs did not consistently monitor the recording of the amounts
accrued in the general ledger. As a result, we proposed an adjustment of $563 million to
reflect more accurately USAID’s accounts payable and accrued expenses recorded in
the general ledger.

Automated Directive System 631.3.4, Accrued Expenditures, states that the obligation
manager or CTO must (a) review system-generated accrual amounts and/or allocations
to determine if the amount can be validated or if it needs to be modified; (b) compare the
amount developed based on known actual conditions and based on first-hand
knowledge of the project activity to system-generated accrual amounts; and (c) complete
the accrual process in accordance with the established time schedule and deadlines,
and if the amounts are approximately the same value, validate the accrual amount as
indicated in the Accruals Query, and if there is a significant difference, modify the
accrual amount in the Accruals Query as appropriate. Because CTOs do not
consistently review accounts payable and accrued expenses amounts generated by the
Accrual Reporting System before those amounts are recorded in the general ledger and
reported in the financial statements, we are making the following recommendation:

    Recommendation No. 3: We recommend that the Chief Financial Officer develop and
    implement procedures to ensure that cognizant technical officers review and validate
    the quarterly accounts payable and accrued expenses amounts generated by the
    Accrual Reporting System before that information is recorded in the general ledger.




2
  The Accrual Reporting System gathers obligation and contract information from USAID’s
Financial Management and Procurement systems and uses these data to calculate estimated
quarterly accrued expenses against individual USAID contracts, grants, or obligation items.


                                                                                         8
The Posting Models That USAID Uses to Record Financial
Transactions and Populate the General Ledger Contain Errors
During our testing of the posting models that are used to record financial transactions in the
general ledger, we observed that the models were not populating general ledger accounts in
accordance with the guidance from the U.S. Treasury. Specifically, we determined that the
models, known as the General Ledger Account Code Entry in the Phoenix accounting
system, do not record financial transactions in the correct accounts and sequence. For
example, when a receipt of a warrant transaction is initiated, the posting model is supposed
to record an entry in the proprietary accounts as well as the budgetary accounts, but it only
records the transactions in the budgetary accounts. In addition, we observed that in some
instances, the models recorded transactions in erroneous accounts. This occurred because
of errors in the posting models. As a result, we identified transactions totaling approximately
$9 billion that were erroneously posted to the general ledger. These transactions were
subsequently corrected through manual intervention.

Financial transactions are required to be recorded in the financial accounting system
according to the posting logic and sequence established in the U.S. Department of
Treasury Letter Supplement S2 08-01, United States Standard General Ledger (USSGL)
Account Transaction, Part 2, which states, “transactions affecting budgetary status may
contain debit or credit entries to multiple USSGL status accounts that may be valid for a
particular transaction.” Additionally, OMB Circular No. A -127, section 7(c), states that
financial events shall be recorded by agencies throughout the financial management
system applying the requirements of the USSGL. The application of the USSGL at the
transaction level means that the financial management systems will process transactions
following the definitions of the general ledger accounts described in the USSGL.

USAID missions are required to enter accounting information for activities conducted at
overseas locations, and they rely on the posting models to record their financial
information in the correct accounts and sequence. As of May 2008, we identified several
USAID transactions that should be recorded in multiple types of accounts but were only
being recorded in one type of account. This occurred because the USAID’s Office of
Financial Management had not developed and implemented an overall process to
identify and correct errors in the posting models to ensure that all accounting information
is correctly recorded in appropriate general ledger accounts. Many posting models have
been inaccurate for several years and USAID has not been able to readily address the
deficiencies. It is imperative that USAID Washington correct the posting model errors so
that financial activities can be correctly recorded and the general ledger and financial
statements accurately populated.

USAID Office of Financial Management has increased its efforts to correct and resolve
errors in the posting models when they are identified. However, the inaccurate posting
and use of the correct accounting codes remain an issue at USAID. Use of the posting
models is critical to USAID’s financial statements because of the number of personnel
around the world who input transactions into the Phoenix accounting system.
Furthermore, the financial statements may be misstated depending on the total absolute
value of all transactions that were incorrectly posted to the general ledger because of
errors in the posting models. Therefore, we are making the following recommendation:




                                                                                             9
    Recommendation No. 4: We recommend that the Chief Financial Officer develop and
    implement an overall plan to identify and correct the errors in the posting models and
    to maintain, update, and test posting models on a periodic basis.

Intragovernmental Transactions Remain Unreconciled
(Repeat Finding)

The U.S. Treasury reported a net difference of $3.3 billion in intragovernmental
transactions between USAID and other Federal agencies at the end of FY 2008. Of this
amount, $292 million represents differences requiring reconciliation in accordance with
OMB Circular A-136 and the Department of Treasury’s Federal Intragovernmental
Transactions Accounting Policies Guide, section 17.1. The differences between
USAID’s records and those of its trading partners occurred because USAID was not able
to consistently resolve material differences identified by the Department of Treasury in
its quarterly Material Differences Report and other differences equal to or greater than
$50 million identified in the Status of Disposition Certification Report. Additionally,
USAID did not consistently reconcile other significant differences by reciprocal category
with its Federal trading partners throughout FY 2008.            Until intragovernmental
transactions are reconciled, USAID’s financial statements are subject to error.

USAID has increased its efforts to resolve unreconciled amounts, but significant
differences still exist, including $292 million that should have been reconciled with two
different Federal agencies. While some timing differences may ultimately be resolved,
differences caused by accounting errors or different accounting methodologies require a
special effort by USAID and its trading partners for timely resolution. The Federal
Intragovernmental Transactions Accounting Policies Guide suggests that agencies work
together to estimate accruals and to record corresponding entries in each set of records
to ensure that they are in agreement and that long-term accounting policy differences
can be identified. Until these differences are eliminated, USAID’s financial statements
are subject to error, to the extent of unreconciled intragovernmental activity.

Although $3.05 billion of the $3.3 billion of net differences reported between USAID and
the U.S. Treasury general fund are not required to be reconciled, Treasury does suggest
that Federal agencies confirm that these differences represent general fund activities.
USAID did not consistently document these confirmations.

We identified similar conditions related to USAID’s intragovernmental reconciliation
process in a previous audit report 3 and recognize that this process requires continuing
coordination with other Federal agencies. Therefore, we are not making a new
recommendation, but we will continue to monitor USAID’s progress in reducing
intragovernmental balances in future audits.




3
 Report on the Audit of USAID’s Financial Statements for Fiscal Years 2007 and 2006, p. 9,
November 14, 2007, http://www.usaid.gov/oig/public/fy07rpts/0-000-08-001-c.pdf.



                                                                                             10
Other Matters
GAO/PCIE Financial Audit Manual requires the auditor to disclose whether material
weaknesses identified during the audit were identified in management’s FMFIA report.
In performing our tests of internal controls as part of our financial statement audit, we
noted and reported a material weakness pertaining to USAID’s reconciliation of its Fund
Balance with Treasury that is included in our Report on Internal Control. This condition
was not identified by USAID in its FMFIA report.


USAID management’s written response to the material weakness and significant
deficiencies identified in our audit has not been subjected to the audit procedures
applied in the audit of the financial statements and accordingly, we express no opinion
on it.

This report is intended solely for the information and use of those charged with
governance at USAID (the USAID Administrator, Deputy Administrator, Assistant
Administrator for Management, and Chief Financial Officer) and others within USAID, as
well as OMB and Congress, and is not intended to be and should not be used by anyone
other than these specified parties. However, this report is a matter of public record, and
its distribution is not limited.




USAID, Office of Inspector General
November 14, 2008




                                                                                       11
REPORT ON COMPLIANCE
WITH LAWS AND
REGULATIONS
We have audited the consolidated balance sheets of USAID as of September 30, 2008,
and 2007. We have also audited the consolidated statements of changes in net position,
consolidated statements of net cost, and combined statements of budgetary resources
for the fiscal years ended September 30, 2008, and 2007, and have issued our report
thereon. We conducted the audits in accordance with auditing standards generally
accepted in the United States, Generally Accepted Government Auditing Standards
issued by the Comptroller General of the United States, and OMB Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements.

The management of USAID is responsible for complying with laws and regulations
applicable to USAID. As part of obtaining reasonable assurance about whether USAID’s
financial statements are free of material misstatement, we performed tests of its
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts and with certain other laws and regulations specified in OMB Bulletin 07-04,
including the requirements referred to in the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these
provisions and did not test compliance with all laws and regulations applicable to USAID.

Our tests did not disclose instances of noncompliance, other than FFMIA, considered to
be reportable under Government Auditing Standards. Our objective was not to provide
an opinion on overall compliance with laws and regulations, and accordingly, we do not
express such an opinion.

OMB Circular A-123
OMB Circular A-123, Management’s Responsibility for Internal Control, implements the
requirements of FMFIA. Appendix A of OMB Circular A-123 contains an assessment
process that management should implement in order to properly assess and improve
internal controls over financial reporting. The assessment process should provide
management with the information needed to properly support a separate assertion on
the effectiveness of the internal controls over financial reporting, as a subset of the
overall FMFIA report.

In 2006, USAID elected to complete its assessment in accordance with OMB Circular A-
123, Appendix A, over the course of 3 years. In 2008, USAID accomplished this
objective and key processes were substantially reviewed as reflected in USAID’s fiscal
year 2008 Statement of Assurance, in accordance with the approved plan. In 2009,
USAID intends to monitor key processes as well as follow up on recommendations made
in prior years.




                                                                                      12
Federal Financial Management Improvement Act of 1996
Under FFMIA, we are required to report on whether USAID’s financial management
systems substantially comply with Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Government Standard
General Ledger (USSGL) at the transaction level. To meet this requirement, we
performed tests of compliance with FFMIA section 803(a) requirements. We noted no
instances of substantial noncompliance with Federal financial management systems
requirements, Federal accounting standards, or USSGL accounting at the transaction
level. In our Report on Internal Control, we identified the following areas for
improvement over several financial system processes, not affecting substantial
compliance:

   •   Reconciliation of Fund Balance with the U.S. Treasury
   •   Accounting for loans receivable
   •   Accounting for accounts payable and accrued expenses
   •   General ledger posting models weaknesses
   •   Reconciliation of intragovernmental transactions

This report is intended solely for the information and use of those charged with
governance at USAID (the USAID Administrator, Deputy Administrator, Assistant
Administrator for Management, and Chief Financial Officer) and others within USAID, as
well as OMB and Congress, and is not intended to be and should not be used by anyone
other than these specified parties. However, this report is a matter of public record, and
its distribution is not limited.




USAID, Office of Inspector General
November 14, 2008




                                                                                       13
EVALUATION OF
MANAGEMENT COMMENTS
We have received USAID’s management comments on the findings and
recommendations included in our draft report. We have evaluated USAID management
comments on the recommendations and have reached management decisions on all of
the recommendations. The following is a summary of USAID’s management comments
and our evaluation of those comments.

USAID management agreed to implement recommendation no. 1 and commented that
the Office of the Chief Financial Officer (CFO) will need additional resources to
implement this recommendation. USAID management also commented that it will
implement a process to identify and track all differences for USAID headquarters paying
locations until the differences are resolved. USAID’s CFO further commented that his
office will implement the necessary collaboration and changes to its current procedures,
where necessary, to resolve the differences. The tracking system used to resolve the
differences at USAID headquarters paying locations will be implemented at overseas
missions. The target completion date is September 30, 2009. We agree with the
management decision to this recommendation and will review USAID’s implementation
of this recommendation during our FY 2009 GMRA audit.

USAID management agreed to implement recommendation no. 2 and intends to make
significant progress in investigating and resolving loan receivable differences. The
target completion date is September 30, 2009. We agree with the management decision
to this recommendation and will review USAID’s implementation of this recommendation
during our FY 2009 GMRA audit.


USAID management agreed to implement recommendation no. 3 and commented that
formal detailed procedures will be developed and disseminated throughout the Agency
to provide clear guidance to cognizant technical officers showing the correct process to
calculate and record accrued expenditures. The target completion date is September
30, 2009. We agree with the management decision to this recommendation and will
review USAID’s implementation of this recommendation during our FY 2009 GMRA
audit.


USAID management agreed to implement recommendation no. 4. The CFO has
resolved some of the errors identified during the audit and has implemented ongoing
efforts to review its process to identify and correct errors in the posting model. USAID
management also intends to expand its efforts to correct these errors. The target
completion date is June 30, 2009. We agree with the management decision to this
recommendation and will review USAID’s implementation of this recommendation during
our FY 2009 GMRA audit.




                                                                                     14
                                                                                 Appendix I
                                                                                Page 1 of 2


SCOPE AND METHODOLOGY
USAID management is responsible for (1) preparing the financial statements in
accordance with generally accepted accounting principles; (2) establishing, maintaining,
and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers Financial Integrity Act (FMFIA) are met; (3) ensuring
that USAID’s financial management systems substantially comply with FFMIA
requirements; and (4) complying with other applicable laws and regulations.

The Office of Inspector General (OIG) is responsible for obtaining reasonable assurance
about whether the financial statements are presented fairly, in all material respects, in
conformity with generally accepted accounting principles. The OIG is also responsible
for (1) obtaining a sufficient understanding of internal control over financial reporting and
compliance to plan the audit, (2) testing whether USAID’s financial management
systems substantially comply with FFMIA requirements, (3) testing compliance with
selected provisions of laws and regulations that have a direct and material effect on the
financial statements and laws for which Office of Management and Budget audit
guidance requires testing, and (4) performing limited procedures with respect to certain
other information appearing in the Agency Financial Report.

To fulfill these responsibilities, the OIG:

    •   examined, on a test basis, evidence supporting the amounts and disclosures in
        the financial statements;
    •   assessed the accounting principles used and significant estimates made by
        management;
    •   evaluated the overall presentation of the financial statements;
    •   obtained an understanding of internal control related to financial reporting
        (including safeguarding assets) and compliance with laws and regulations,
        (including execution of transactions in accordance with budget authority);
    •   tested relevant internal controls over financial reporting and compliance, and
        evaluated the design and operating effectiveness of internal controls;
    •   considered the process for evaluating and reporting on internal control and
        financial management systems under FMFIA; and
    •   tested USAID’s compliance with FFMIA requirements.

We also tested USAID’s compliance with selected provisions of the following laws and
regulations:

    •   Anti-deficiency Act
    •   Improper Payments Information Act
    •   Prompt Payment Act
    •   Debt Collection Improvement Act
    •   Federal Credit Reform Act
    •   OMB Circular A-136
    •   OMB Circular A-123




                                                                                          15
                                                                                 Appendix I
                                                                                Page 2 of 2

We did not evaluate all internal controls relevant to operating objectives as broadly
defined by the Federal Managers Financial Integrity Act, such as those controls relevant
to preparing statistical reports and ensuring efficient operations. We limited our internal
control testing to controls over financial reporting and compliance. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may occur and may not be detected. We also caution that projecting our
evaluation to future periods is subject to the risk that controls may become inadequate
because of changes in conditions, or that the degree of compliance with controls may
deteriorate. In addition, we caution that our internal control testing may not be sufficient
for other purposes.

We did not test compliance with all laws and regulations applicable to USAID. We
limited our tests of compliance to those laws and regulations required by OMB audit
guidance that we deemed applicable to the financial statements for the fiscal years
ended September 30, 2008, and 2007. We caution that noncompliance may occur and
not be detected by these tests, and that such testing may not be sufficient for other
purposes.

In forming our opinion, the OIG considered potential aggregate errors exceeding $278
million for any individual statement to be material to the presentation of the overall
financial statements.

Federal Financial Management Improvement Act
We assessed whether USAID complied with the Federal financial management systems
requirement under section 803(a) of the Federal Financial Management Improvement
Act of 1996 (FFMIA). To perform our review, we conducted assessments of USAID’s
Global Acquisition System (GLAAS) and Phoenix financial management system to
determine whether the systems substantially complied with selected mandatory
requirements contained in the Financial Systems Integration Office (FSIO), formerly
known as the Joint Financial Management Improvement Program, Acquisition/Financial
Systems Interface Requirements dated June 2002.

In conducting our review, we held discussions with GLAAS and Phoenix officials as well
as contract and Agency systems personnel to obtain the necessary documentation to
support our compliance assessment. The results of our review found that USAID met 46
of the 64 mandatory FSIO Acquisition/Financial Systems Interface Requirements. Even
though we found that USAID was noncompliant with 18 of the 64 requirements, Agency
officials indicated that 16 of the 18 noncompliant requirements do not relate to USAID’s
business processes. Therefore, a determination was made that those 16 noncompliant
requirements (which included receipt and acceptance; general property, plant, and
equipment; and performance-based payments) were not applicable to USAID’s
compliance with FFMIA.           The remaining two noncompliant requirements were
attributable to performance-based payments and fast pay within USAID.

Additionally, we requested and obtained a memorandum from the Office of the Chief
Financial Officer certifying that no fiscal year 2008 upgrades or changes to the Phoenix
accounting system result in USAID not being substantially compliant with FFMIA.
Therefore, our review found no instances of substantial noncompliance with the Federal
financial management systems requirement under section 803(a) of the FFMIA.



                                                                                         16
                                                                           Appendix II
                                                                           Page 1 of 3



MANAGEMENT COMMENTS


                                                                 November 10, 2008

MEMORANDUM

TO:           AIG, Joseph Farinella

FROM:         M/CFO, David D. Ostermeyer /s/

SUBJECT:      Management's Comments to Draft Independent Auditor's Report on
              USAID's Financial Statements for Fiscal Years 2008 and 2007 (Report
              No. 0-000-09-001 -C)

Thank you for your draft audit report on the USAID FY 2008 and 2007 Financial
Statements and for the professionalism and dedication exhibited by your staff
throughout this entire process.

FY 2008 was another significant year for federal financial management at USAID. We
are pleased that your draft report presents both our progress and our remaining
challenges. We are gratified that the USAID Inspector General will issue unqualified
opinions on all of USAID's four principal financial statements. The acknowledgments of
the Agency's improvements in financial systems and processes throughout the report
are greatly appreciated.

Following are our comments and management decisions regarding the findings and
proposed audit recommendations:

Material Weaknesses: USAID Does Not Reconcile its Fund Balance with the
U.S. Treasury and Resolve Reconciling Items (Repeat Finding)

Recommendation No. I: We recommend that USAID's Chief Financial Officer implement
a process in accordance with the Supplement to Treasury Financial Manual Volume 1,
Part 2-5100, section V (A), Periodic Review and Evaluation, to perform and document
monthly reconciliation of its Fund Balance with Treasury account with the U.S. Treasury
and to identify, track and resolve all differences in a timely manner.


                                                                                    17
                                                                           Appendix II
                                                                           Page 2 of 3

Management Decision: We accept the recommendation. The Chief Financial
Officer (CFO) will need additional resources to implement this recommendation.
We will implement a process that will document our reconciliations, and identify
and track all differences for the headquarters paying location until they are
resolved, and we will make significant progress in resolving differences. At the
same time, we note that this will be a project that will require collaboration among
several CFO functions, one for which our information resources may be limited,
and one that may require several changes in our current procedures. After we
complete the headquarters tracking system we will adapt it to the Missions and
implement it there.

Target completion date: September 30, 2009

Significant Deficiency: USAID's Reconciliation of Loans Receivable was not
Adequate and did not resolve Differences between USAID and its Loan Services
Provider

Recommendation No. 2: We recommend that USAID's Office of the Chief Financial
Officer implement procedures to reconcile loans receivable balances in Phoenix with
the loans receivable balances in Midland's Enterprise Loan System and to investigate
and resolve differences in a timely manner.

Management Decision: We agree to implement the recommendation. We will make
significant progress in investigating and resolving differences.

Target completion date: September 30, 2009

Significant Deficiency: Controls to Estimate and Record Accrued Expenses and
Accounts Payable are not Operating Effectively

Recommendation No. 3: We recommend that the Chief Financial Officer develop and
implement procedures to ensure that Cognizant Technical Officers review and validate
the quarterly accounts payable and accrued expenses amounts generated by the
Accrual Reporting System before that information is recorded in the general ledger.
Management Decision: We agree to implement the recommendation. Formal and
detailed procedures will be developed and disseminated throughout the Agency to
provide clear guidance, particularly to Cognizant Technical Officers, on the correct
preparation and recording of quarterly accrued expenditures.

Target completion date: September 30, 2009



                                                                                       18
                                                                              Appendix II
                                                                              Page 3 of 3

Significant Deficiency: The Posting Models that USAID uses to Record
Financial Transactions and Populate the General Ledger Contain Errors

Recommendation No. 4: We recommend that the Chief Financial Officer develop and
implement an overall plan to identify and correct the errors in the posting models and
to maintain, update, and test posting models on a periodic basis.

Management Decision: We agree to implement the recommendation. CFO has resolved
some of the errors identified during the audit. CFO has implemented an ongoing "tie
point" review process to identify and correct errors in the posting models, and we will
expand these efforts.

Target completion date: June 30, 2009

Significant Deficiency: Intragovernmental Transactions Remain
Unreconciled (Repeat Finding)


There are no recommendations associated with this significant deficiency. The CFO
implemented corrective actions related to two audit recommendations issued in the
Fiscal Years 2007, 2006 and 2005 GMRA audit reports. USAID requires more
cooperation from its trading partners if we are to eliminate differences altogether but we
will keep trying to improve, consistent with other demands on our resources.

In closing, I would like to confirm USAID's commitment to continual improvement in
financial management. I intend to ensure that all necessary steps are taken to
institutionalize strong financial management performance throughout the Agency.
We will continue the improvements made in the last few years as we work further
to develop and implement long-term solutions to address the issues cited in your
report.




                                                                                         19
                                                                              Appendix III
                                                                              Page 1 of 2


STATUS OF PRIOR YEAR
FINDINGS AND
RECOMMENDATIONS
OMB Circular A-50 states that a management decision on audit recommendations shall
be made within a maximum of 6 months after a final report is issued. Corrective action
should proceed as rapidly as possible.

Status of 2007 Findings and Recommendations
Audit of USAID’s Financial Statements for Fiscal Years 2007 and 2006, Audit Report No.
0-000-08-001-C, November 15, 2007

Recommendation No. 1: We recommend that USAID’s Office of the Chief Financial
Officer develop agreements with its material child Federal agencies that address
consistency between budgetary and proprietary accounting information provided to
USAID.

Status: The Department of State, being a material Federal child agency to USAID, will
receive each allocation from the parent as a Treasury Department Non-expenditure
Transfer Authorization. In addition, the Department of State will provide USAID with
correct and timely financial information. Final action was completed on September 26,
2008.

Recommendation No. 2: We recommend that USAID’s Office of the Chief Financial
Officer annually update and validate transaction codes used by its loan servicing
provider in USAID’s transaction translation table.

Status: The clean-up of the transaction codes in the transaction translation table has
been completed and all missing crosswalk entries have been corrected. The changes
were tested and found to be successful. The Office of the Chief Financial Officer (CFO)
has outlined the PNC-Midland process and configured a workflow to synchronize with
Phoenix (see Status in the following recommendation no. 3). Moving forward, Midland
and M/CFO/CAR will jointly update and validate the transaction translation table on an
annual basis. Final action was completed on August 31, 2008.

Recommendation No. 3: We recommend that USAID’s Office of the Chief Financial
Officer develop and implement controls preventing the authorization of loan
cancellations prior to its receipt of subsidy funds by the Department of Treasury and
prior to the transfer of appropriations approved by the Office of Management and
Budget.

Status: The Office of the CFO prepared a flow chart of the action and procedures
related to loan subsidies and write-offs. The updated procedures include a control to
ensure that the loan service provider makes entries in its system for transactions that are



                                                                                        20
                                                                             Appendix III
                                                                             Page 2 of 2

recorded in Phoenix in the same period, where possible. These procedures will apply
proper timing to loan accounting transactions for subsidies.     M/CFO/WFS has
communicated these updated internal control procedures to PNC-MIDLAND. Final
action was completed on May 30, 2008.

Status of 2006 Findings and Recommendations
Audit of USAID’s Financial Statements for Fiscal Years 2006 and 2005, Audit Report No.
0-000-07-001-C, November 15, 2006

Recommendation No. 4: We recommend that USAID’s Office of the Chief Financial
Officer perform monthly reconciliations of local bank balances with the same information
in Phoenix and record, in Phoenix, interest earned and gains or losses associated with
foreign currency fluctuations for each of its foreign currency accounts.

Status: The Office of the CFO has confirmed that data received from another data call
are consistent with the Foreign Currency Trust Fund recorded in Phoenix. Moving
forward, M/CFO/CAR will rely on Phoenix for foreign currency information. Final action
was completed on May 30, 2008.

Recommendation No. 2.2: We recommend that USAID’s Office of the Chief Financial
Officer implement policies to ensure that all transactions recorded in the general ledger
are reported to Treasury on the SF 224 and that all differences and suspense items are
investigated and resolved in a timely manner.

Status: During FY 2008, USAID has improved its performance on the process for
reconciling its Fund Balance with Treasury (FBWT). We have investigated and resolved
many differences between transactions recorded at the U.S. Treasury and transactions
recorded in the Phoenix accounting system. Unfortunately, we have not been able to
resolve all of them. Additional time, people, and systems improvements are required
before USAID can address the challenges of the process for reconciling its FBWT.

Improvements include:
   - Correction of prior year DHHS differences well under way
   - Warrant and transfer differences eliminated
   - 2008 payroll differences reduced to one payroll (vs. four payrolls)
   - 2008 Advice of Charge differences reduced
   - Overall, USAID’s FBWT difference has decreased

Challenges include:
   - The number of unresolved differences for the USAID/Washington Agency
       Location Code is unacceptably high.
   - Differences between missions’ disbursements in Phoenix and the U.S.
       Treasury appear to be growing.

The target date for completion is September 30, 2009.




                                                                                      21
FINANCIAL STATEMENTS


                                                        CONSOLIDATED BALANCE SHEET
                                                              As of September 30, 2008 and 2007
                                                                         (In Thousands)
                                                                                                       2008                   2007
 ASSETS:
    Intragovernmental:
        Fund Balance with Treasury (Note 2)                                                        $   19,181,073         $   19,131,357
        Accounts Receivable (Note 3)                                                                          220                    220
        Other Assets (Note 4)                                                                               1,753                  4,532
    Total Intragovernmental                                                                            19,183,046             19,136,109

    Cash and Other Monetary Assets (Note 5)                                                               302,628                288,079
    Accounts Receivable, Net (Note 3)                                                                     267,029                179,347
    Loans Receivable, Net (Note 6)                                                                      3,988,662              4,410,638
    Inventory and Related Property, Net (Note 7)                                                           32,729                 35,753
    General Property, Plant, and Equipment, Net (Notes 8 and 9)                                            94,269                 88,498
    Advances (Note 4)                                                                                     497,223                501,531
    Total Assets                                                                                   $ 24,365,586           $ 24,639,955

 LIABILITIES (Note 16):
    Intragovernmental:
        Accounts Payable (Note 10)                                                                 $       48,389         $       62,101
        Debt (Note 11)                                                                                    477,372                498,506
        Due to U.S.Treasury (Note 11)                                                                   3,737,917              4,045,375
        Other Liabilities (Note 12)                                                                       159,437                216,005
    Total Intragovernmental                                                                             4,423,115              4,821,987

    Accounts Payable (Note 10)                                                                          1,869,874              2,367,957
    Loan Guarantee Liability (Note 6)                                                                   1,606,876              1,823,332
    Federal Employee and Veteran’s Benefits (Note 13)                                                      21,269                 22,282
    Other Liabilities (Notes 10, 12, and 13)                                                              459,977                398,622
    Total Liabilities                                                                                  8,381,111              9,434,180

    Commitments and Contingencies (Note 14)                                                                    –                  2,940

 NET POSITION:
   Unexpended Appropriations                                                                           14,982,084             14,787,230
   Cumulative Results of Operations                                                                     1,002,391                415,605
    Total Net Position                                                                             $ 15,984,475           $ 15,202,835


 Total Liabilities and Net Position                                                                $ 24,365,586           $ 24,639,955

The accompanying notes are an integral part of these statements.



                                                                  USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                65
                                           CONSOLIDATED STATEmENT Of NET COST
                                                  For the Years Ended September 30, 2008 and 2007
                                                                    (In Thousands)
 OBJECTIVES                                                                                            2008             2007
 Peace and Security:
     Gross Costs
                                                                               $       846,976     $    460,211
     Less: Earned Revenue
                                                                                (2,161)          (1,146)
     Net Program Costs
                                                                                 844,815          459,065

 Governing Justly and Democratically:
     Gross Costs
                                                                                      1,413,922        1,306,545
     Less: Earned Revenue
                                                                                (3,800)          (3,498)
     Net Program Costs
                                                                                1,410,122        1,303,047

 Investing in People:
     Gross Costs
                                                                                      3,941,083        3,513,749
     Less: Earned Revenue
                                                                              (278,465)       (484,068)
     Net Program Costs
                                                                                3,662,618        3,029,681

 Economic Growth:
     Gross Costs
                                                                                      2,497,065        3,103,511
     Less: Earned Revenue
                                                                              (133,679)       (102,616)
     Net Program Costs
                                                                                2,363,386        3,000,895

 Humanitarian Assistance:
     Gross Costs
                                                                                       594,418         1,389,641
     Less: Earned Revenue
                                                                               (12,397)          (3,587)
     Net Program Costs
                                                                                 582,021         1,386,054

 Operating Unit management:
     Gross Costs
                                                                                        58,507          117,362
     Less: Earned Revenue
                                                                                  (162)           (210)
     Net Program Costs
                                                                                  58,345          117,152
 Net Costs of Operations (Notes 15 and 16)                                                          $ 8,921,307     $ 9,295,894

The accompanying notes are an integral part of these statements.




66                      USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
                                  CONSOLIDATED STATEmENT Of CHANGES IN NET POSITION
                                                       For the Years Ended September 30, 2008 and 2007
                                                                         (In Thousands)
                                                                                                          2008                2007
                                                                                                  Consolidated Total   Consolidated Total

 Cumulative Results of Operations:
    Beginning Balances                                                                               $     415,605       $    1,362,566
        Adjustments-Changes in Accounting Principles                                                              –          (1,026,284)
    Beginning Balances, as Adjusted                                                                        415,605             336,282

 Budgetary financing Sources:
        Appropriations Used                                                                               9,397,644           9,235,818
        Donations and Forfeitures of Cash and Cash Equivalents                                              87,774             117,541
        Transfers-in/out without Reimbursement                                                                   165                  –
 Other financing Sources (Non-Exchange):
    Imputed Financing                                                                                       22,509              21,858
    Total Financing Sources                                                                               9,508,092           9,375,217
    Net Cost of Operations                                                                               (8,921,307)         (9,295,894)
    Net Change                                                                                             586,785              79,323

 Cumulative Results of Operations:                                                                        1,002,391            415,605

 Unexpended Appropriations:
   Beginning Balance                                                                                     14,787,230          14,334,819
        Adjustments-Changes in Accounting Principles                                                              –            (896,460)
    Beginning Balance, as Adjusted                                                                       14,787,230          13,438,359

 Budgetary financing Sources:
        Appropriations Received                                                                           9,389,158          10,853,865
        Appropriations Transferred in/out                                                                  370,567              (64,272)
        Other Adjustments                                                                                  (167,227)           (204,904)
        Appropriations Used                                                                              (9,397,644)         (9,235,818)
        Total Budgetary Financing Sources                                                                  194,854            1,348,871
    Total Unexpended Appropriations                                                                      14,982,084          14,787,230

 Net Position                                                                                        $ 15,984,475        $ 15,202,835


The accompanying notes are an integral part of these statements.




                                                                 USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                  67
                                       COmBINED STATEmENT Of BUDGETARY RESOURCES
                                                      For the Years Ended September 30, 2008 and 2007
                                                                        (In Thousands)
                                                                                         2008                               2007
                                                                                           Non-Budgetary                      Non-Budgetary
                                                                          Budgetary        Credit Reform    Budgetary         Credit Reform
Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                       $ 3,271,812       $ 1,582,317      $ 3,904,527       $ 1,422,605
   Recoveries of Prior Year Unpaid Obligations                               211,228                 2          199,240                23
   Budget Authority:
      Appropriations
                                                       9,478,641                  –      10,920,445                    –
      Borrowing Authority (Note 11)
                                                –              3,313               –                    –
      Spending Authority from Offsetting Collections:

          Earned:
              Collected                                                     1,163,545            197,609        978,655              227,843
              Change in Receivables from Federal Sources                            –                  –         (3,435)                   –
          Change in Unfilled Customer Orders:
              Without Advance from Federal Sources                            (52,966)                  –        58,516                     –
        Subtotal                                                           10,589,220            200,922      11,954,181             227,843
     Nonexpenditure Transfers, Net,Anticipated and Actual                     354,552                  –          78,398                   –
     Permanently Not Available                                               (893,394)                 –        (980,038)                  –
Total Budgetary Resources                                                $13,533,418       $ 1,783,241      $15,156,308       $ 1,650,471

Status of Budgetary Resources:
   Obligations Incurred: (Note 17)

       Direct
                                                           $ 9,302,741       $     166,533    $ 11,523,609      $       68,154
       Reimbursable
                                                         328,612                  18         371,418                   –
            Subtotal                                                        9,631,353            166,551      11,895,027              68,154
     Unobligated Balance:

        Apportioned (Note 2)
                                               2,400,824               7,599      2,703,044               3,663
        Subtotal
                                                           2,400,824               7,599      2,703,044               3,663
     Unobligated Balance Not Available (Note 2)                             1,501,241           1,609,091        558,237           1,578,654
Total Status of Budgetary Resources (Note 17)                            $13,533,418       $ 1,783,241      $15,156,308       $ 1,650,471


                                                                                                                              (continued on next page)




68                    USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
                                COmBINED STATEmENT Of BUDGETARY RESOURCES (continued)
                                                    For the Years Ended September 30, 2008 and 2007
                                                                      (In Thousands)

                                                                                         2008                              2007
                                                                                           Non-Budgetary                    Non-Budgetary
                                                                         Budgetary         Credit Reform    Budgetary       Credit Reform

 Change in Obligated Balance:
   Obligated Balance, Net

      Unpaid Obligations, Brought Forward, October 1
                    $ 14,292,483      $     28,669     $11,666,588      $       3,772
      Less: Uncollected Customer Payments from 

          Federal Sources, Brought Forward, October 1                         (75,010)                 –        (19,930)                 –
        Total Unpaid Obligated Balance, Net (Note 17)                      14,217,473             28,669     11,646,658              3,772
    Obligations Incurred Net (+/-)                                          9,631,353            166,551     11,895,027             68,155
    Less: Gross Outlays                                                    (9,987,029)          (195,914)    (8,969,011)           (43,235)
    Less: Recoveries of Prior Year Unpaid Obligations,Actual                 (211,228)                (2)      (199,239)               (23)
    Change in Uncollected Customer Payments from Federal Sources (+/-)         52,966                  –        (55,081)                 –
    Obligated Balance, Net, End of Period
        Unpaid Obligations                                                 13,725,579               (695)    14,393,364             28,669 

        Less: Uncollected Customer Payments from Federal Sources              (22,044)                 –        (75,010)                 –

        Total, Unpaid Obligated Balance, Net, End of Period                13,703,535               (695)    14,318,354             28,669 


 Net Outlays:
   Gross Outlays
                                                           9,987,028            195,914      8,969,011             43,235
   Less: Offsetting Receipts (Note 17)
                                    (1,163,545)          (197,609)      (978,655)          (227,843)
   Less: Distributed Offsetting Receipts
                                    (179,387)                 –        (25,925)                 –
 Net Outlays                                                             $ 8,644,096       $     (1,695)    $ 7,964,431      $ (184,608)

The accompanying notes are an integral part of these statements.




                                                             USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                         69
NOTES TO ThE
FINANCIAL STATEMENTS

NOTE 1. SUmmARY Of SIGNIfICANT ACCOUNTING POLICIES

A. BASIS Of                                      of the OMB, the Secretary of the Treasury,      sanitation infrastructure,(2) feeding and
PRESENTATION                                     and the Comptroller General.                    food distribution, (3) supporting relief
                                                                                                 efforts related to refugees, internally
The accompanying principal financial                                                             displaced persons, and vulnerable indi
statements (statements) report USAID’s           B. REPORTING ENTITY                             viduals, including assistance for families of
financial position and results of opera                                                          innocent Iraqi civilians who suffer losses as
tions. They have been prepared using             Established in 1961 by President John F.        a result of military operations, (4) elec
USAID’s books and records in accordance          Kennedy, USAID is the independent U.S.          tricity, (5) healthcare, (6) telecommunica
with Agency accounting policies, the most        Government agency that provides economic        tions, (7) economic and financial policy,
significant of which are summarized in           development and humanitarian assistance         (8) education, (9) transportation, (10) rule
this note. The statements are presented in       to advance United States economic and           of law and governance, (11) humanitarian
accordance with the guidance and require         political interests overseas.                   de-mining, and (12) agriculture.
ments of the Office of Management and
Budget (OMB) Circular A-136, Financial
                                                 Programs                                        Economic Support Fund
Reporting Requirements.
                                                 The statements present the financial            Programs funded through this account
In accordance with OMB Circular A-136,
                                                 activity of various programs and accounts       provide economic assistance to select
changes have been made to the 2008
                                                 managed by USAID. The programs                  countries in support of efforts to promote
accounting reporting procedures. The
                                                 include the Iraq Relief and Reconstruction      stability and U.S. security interests in
2008 statement of financing is presented as
                                                 Fund, Economic Support Fund, Develop            strategic regions of the world.
a footnote instead of a principal financial
                                                 ment Assistance, Assistance for the New
statement to comply with new require
                                                 Independent States of the Former Soviet
ments. In addition, as specified by Note 1                                                       Development Assistance
                                                 Union, Special Assistance Initiatives,
Section U, child transfer activities are to be
                                                 International Disaster Assistance, Child        This program provides economic resources
included and parent transfer activities are
                                                 Survival and Disease, Transition Initiatives,   to developing countries with the aim of
to be excluded in trial balances.
                                                 and Direct and Guaranteed Loan                  bringing the benefits of development
USAID accounting policies follow                 Programs. This classification is consistent     to the poor. The program promotes
generally accepted accounting principles         with the Budget of the United States.           broad-based, self-sustaining economic
for the Federal government, as recom                                                             growth and supports initiatives intended
mended by the Federal Accounting                 Iraq Relief and Reconstruction Fund             to stabilize population growth, protect
Standards Advisory Board (FASAB).                                                                the environment and foster increased
The FASAB has been recognized by the             This fund supports necessary expenses           democratic participation in developing
American Institute of Certified Public           related to providing humanitarian assistance    countries. The program is concentrated in
Accountants (AICPA) as the official              in and around Iraq and to carrying out the      those areas in which the United States has
accounting standard set for the Federal          purposes of the Foreign Assistance Act of       special expertise and which promise the
government. These standards have been            1961 for rehabilitation and reconstruction      greatest opportunity for the poor to better
agreed to, and published by the Director         in Iraq. These include costs of (1) water/      their lives.




70                  USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
Assistance for the New Independent              nutrition, with the aim of reducing infant     •	  Micro and Small Enterprise
States of the Former Soviet Union               and child mortality rates; to reduce HIV           Development Program
                                                transmission and the impact of the HIV/          The Micro and Small Enterprise Devel
This account provides funds for a program       AIDS pandemic in developing countries;           opment (MSED) Program supports
of assistance to the independent states that    to reduce the threat of infectious diseases      private sector activities in developing
emerged from the former Soviet Union.           of major public health importance such as        countries by providing direct loans
These funds support U.S. foreign policy         polio, and malaria; and to expand access         and loan guarantees to support local
goals of consolidating improved U.S.            to quality basic education for girls and         micro and small enterprises. Although
security; building a lasting partnership with   women.                                           the MSED program is still active, the
the New Independent States; and providing
                                                                                                 bulk of USAID’s new loan guarantee
access to each other’s markets, resources,
                                                                                                 activity is handled through the Devel
and expertise.                                  Transition Initiatives
                                                                                                 opment Credit Authority
                                                This account funds humanitarian                  (DCA) program.
Special Assistance Initiatives                  programs that provide post-conflict assis
                                                                                               •	  Israeli Loan Guarantee Program
                                                tance to victims of natural and man-made
This program provides funds to support          disasters. Until FY 2001, this type of assis     Congress enacted the Israeli Loan
special assistance activities. The majority     tance was funded under the International         Guarantee Program in Section 226 of
of funding for this program was for             Disaster Assistance account.                     the Foreign Assistance Act of 1961 to
democratic and economic restructuring in                                                         support the costs for immigrants reset
Central and Eastern European countries                                                           tling to Israel from the former Soviet
consistent with the objectives of the           Direct and Guaranteed Loans:                     Union, Ethiopia, and other countries.
Support for East European Democracy                                                              Under this program, the U.S. Govern
(SEED) Act. All SEED Act programs               •	  Direct Loan Program
                                                                                                 ment guaranteed the repayment of up
support one or more of the following               These loans are authorized under              to $10 billion in loans from commer
strategic objectives: promoting broad-             Foreign Assistance Acts, various prede        cial sources, to be borrowed in $2
based economic growth with an emphasis             cessor agency programs, and other             billion annual increments. Borrowing
on privatization, legal and regulatory             foreign assistance legislation. Direct        was completed under the program
reform and support for the emerging                Loans are issued in both U.S. dollars         during Fiscal Year 1999, with approxi
private sector; encouraging democratic             and the currency of the borrower.             mately $9.2 billion being guaranteed.
reforms; and improving the quality of life         Foreign currency loans made “with             Guarantees are made by USAID
including protecting the environment and           maintenance of value” place the risk of       on behalf of the U.S. Government,
providing humanitarian assistance.                 currency devaluation on the borrower,         with funding responsibility and basic
                                                   and are recorded in equivalent U.S.           administrative functions guarantees
                                                   dollars. Loans made “without mainte           for Israel, not to exceed $9 billion and
International Disaster Assistance                  nance of value” place the risk of deval       $1.3 billion in guarantees were resting
                                                   uation on the U.S. Government, and            with USAID. In FY 2003, Congress
Funds for the International Disaster
                                                   are recorded in the foreign currency          authorized a second portfolio of loan
Assistance Program provide relief,
                                                   of the borrower.                              issued under this portfolio during
rehabilitation, and reconstruction
assistance to foreign countries struck by                                                        FY 2003.
                                                •	  Urban and Environmental
disasters such as famines, floods, hurri            Program                                    •	  Ukraine Guarantee Program
canes and earthquakes. The program also
                                                   The Urban and Environmental (UE)              The Ukraine Export Credit Insurance
provides assistance in disaster prepared
                                                   program, formerly the Housing                 Program was established with the
ness, and prevention and mitigation.
                                                   Guarantee Program, extends guaran             support of the Export-Import Bank of
                                                   ties to U.S. private investors who make       the U.S. to assist Ukrainian importers
Child Survival and Disease                         loans to developing countries to assist       of American goods. The program
                                                   them in formulating and executing             commenced operations in FY 1996
This program provides economic resources           sound housing and community devel             and expired in FY 1999. The Ukraine
to developing countries to support                 opment policies that meet the needs           Financing Account was closed out in
programs to improve infant and child               of lower income groups.                       FY 2002.




                                                      USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                        71
•	  Development Credit Authority               General fund appropriations and the             use of federal funds. The accompanying
     The first obligations for USAID’s new     Special fund are used to record financial       Balance Sheet, Statement of Net Cost,
     Development Credit Authority (DCA)        transactions under Congressional appro          and Statement of Changes in Net Position
     were made in FY 1999. DCA allows          priations or other authorization to spend       have been prepared on an accrual basis.
     missions and other offices to use loans   general revenue.                                The Statement of Budgetary Resources
     and loan guarantees to achieve their                                                      has been prepared in accordance with
                                               Revolving funds are established by law to       budgetary accounting rules.
     development objectives when it can be
                                               finance a continuing cycle of operations,
     shown that (1) the project generates
                                               with receipts derived from such opera
     enough revenue to cover the debt
                                               tions usually available in their entirety for   D. BUDGETS AND
     service including USAID fees, (2) there
                                               use by the fund without further action by
     is at least 50% risk-sharing with a                                                       BUDGETARY
                                               Congress.
     private-sector institution, and (3) the                                                   ACCOUNTING
     DCA guarantee addresses a financial       Trust funds are credited with receipts
     market failure in-country and does not    generated by the terms of the trust             The components of USAID’s budgetary
     “crowd-out” private sector lending.       agreement or statute. At the point of           resources include current budgetary
     DCA can be used in any sector and         collection, these receipts are unavailable,     authority (that is, appropriations and
     by any USAID operating unit whose         depending upon statutory requirements,          borrowing authority) and unobligated
     project meets the DCA criteria. DCA       or available immediately.                       balances remaining from multi-year
     projects are approved by the Agency                                                       and no-year budget authority received
     Credit Review Board and the Chief         The capital investment fund contains            in prior years. Budget authority is the
     Financial Officer.                        no year funds to provide the Agency             authorization provided by law to enter
                                               with greater flexibility to manage invest       into financial obligations that result in
•	  Loan Guarantees to Egypt                                                                   immediate or future outlays of federal
                                               ments in technology systems and facility
    Program                                                                                    funds. Budgetary resources also include
                                               construction that the annual appropria
     The Loan Guarantees to Egypt              tion for Operating Expenses does not            reimbursement and other income (that
     Program was established under the         allow.                                          is, spending authority from offsetting
     Emergency Wartime Supplemental                                                            collections credited to an appropriation of
     Appropriations Act, 2003. Under this      Deposit funds are established for               fund account) and adjustments (that is,
     program, the U.S. Government was          (1) amount received for which USAID             recoveries of prior year obligations).
     authorized to issue an amount not to      is acting as a fiscal agent or custodian,
     exceed $2 billion in loan guarantees      (2) unidentified remittances, (3) monies        Unobligated balances associated with
     to Egypt during the period beginning      withheld from payments for goods or             appropriations that expire at the end
     March 1, 2003 and ending September        services received, and (4) monies held          of the fiscal year remain available for
     30, 2005. New loan guarantees             waiting distribution on the basis of legal      obligation adjustments, but not new
     totaling $1.25 billion were issued in     determination.                                  obligations, until that account is canceled.
     fiscal year 2005 before the expiration                                                    When accounts are canceled five years
     of the program.                                                                           after they expire, amounts are not
                                               C. BASIS Of                                     available for obligations or expenditure for
                                               ACCOUNTING                                      any purpose and are returned to Treasury.
fund Types
                                               Transactions are recorded on both an            Division A, Title VII, Section 611 found
The statements include the accounts of         accrual and budgetary basis. Under the          on page 474 of H. R. 2764, known as the
all funds under USAID’s control. Most of       accrual basis, revenues are recognized          ‘‘Consolidated Appropriations Act, 2008’’
the fund accounts relate to general fund       when earned and expenses are recognized         and signed into law as P.L.110-161,
appropriations. USAID also has special         when a liability is incurred, without regard    provides to USAID extended authority
fund, revolving fund, trust fund, deposit      to receipt or payment of cash. Budgetary        to obligate funds. USAID’s appro
funds, capital investment fund, receipt        accounting facilitates compliance with          priations acts for years have consistently
account, and budget clearing accounts.         legal constraints on, and controls of, the      provided essentially similar authority.
                                                                                               It is commonly known as “511/517”




72                  USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
authority, a name that is based on refer       in the financial statements to offset the      I. LOANS RECEIVABLE
ences to the sections of the previous          imputed costs
appropriations acts. Under this authority                                                     Loans are accounted for as receivables after
funds shall remain available for obliga                                                       funds have been disbursed. For loans
tion for an extended period if such funds      f. fUND BALANCE wITH                           obligated before October 1, 1991 (the
are obligated within their initial period of   THE U.S. TREASURY                              pre-Credit Reform period), loan principal,
availability.                                                                                 interest, and penalties receivable are reduced
                                               Cash receipts and disbursements are            by an allowance for estimated uncollectible
                                               processed by the U.S. Treasury. The fund       amounts. The allowance is estimated based
E. REVENUES AND                                balances with Treasury are primarily           on a net present value method prescribed by
OTHER fINANCING                                appropriated funds that are available to       OMB that takes into account country risk
SOURCES                                        pay current liabilities and finance autho      and projected cash flows.
                                               rized purchase commitments, but they also
USAID receives the majority of its                                                            For loans obligated on or after October 1,
                                               include revolving, deposit, and trust funds.
funding through congressional appropria                                                       1991, the loans receivable are reduced by an
tions --annual, multi-year, and no-year                                                       allowance equal to the net present value of
appropriations -- that may be used within      G. fOREIGN CURRENCY                            the cost to the Government of making the
statutory limits. Appropriations are recog                                                    loan. This cost, known as “subsidy”, takes
nized as revenues at the time the related      The Direct Loan Program has foreign            into account all cash inflows and outflows
program or administrative expenses are         currency funds, which are used to disburse     associated with the loan, including the
incurred. Appropriations expended for          loans in certain countries. Those balances     interest rate differential between the loans
capitalized property and equipment are         are reported at the U.S. dollar equiva         and Treasury borrowing, the estimated
not recognized as expenses. In addition to     lents using the exchange rates prescribed      delinquencies and defaults net of recoveries,
funds warranted directly to USAID, the         by the U.S. Treasury. A gain or loss on        and offsets from fees and other estimated
agency also receives allocation transfers      translation is recognized for the change       cash flows. This allowance is re-estimated
from the U.S. Department of Agriculture        in valuation of foreign currencies at          when necessary and changes reflected in the
(USDA) Commodity Credit Corporation,           year-end. Additionally, some USAID             operating statement.
the Executive Office of the President, the     host countries contribute funds for the
                                               overhead operation of the host mission         Loans have been made in both U.S. dollars
Department of State, and Millennium                                                           and foreign currencies. Loans extended in
Challenge Corporation.                         and the execution of USAID programs.
                                               These funds are held in trust and reported     foreign currencies can be with or without
Additional financing sources for USAID’s       in U.S. dollar equivalents on the balance      “Maintenance of Value” (MOV). Those
various credit programs and trust funds        sheet and statement of net costs.              with MOV place the currency exchange risk
include amounts obtained through collec                                                       upon the borrowing government; those
tion of guaranty fees, interest income on                                                     without MOV place the risk on USAID.
rescheduled loans, penalty interest on
                                               H. ACCOUNTS                                    Foreign currency exchange gain or loss is
delinquent balances, permanent indefinite      RECEIVABLE                                     recognized on those loans extended without
borrowing authority from U.S. Treasury,                                                       MOV, and reflected in the net credit
                                               Accounts receivable consist of amounts due     programs receivable balance.
proceeds from the sale of overseas real
                                               mainly from foreign governments but also
property acquired by USAID, and                                                               Credit program receivables also include
                                               from other Federal agencies and private
advances from foreign governments and                                                         origination and annual fees on outstanding
                                               organizations. USAID regards amounts
international organizations.                                                                  guarantees, interest on rescheduled loans
                                               due from other Federal agencies as 100
Revenues are recognized as financing           percent collectible. The Agency establishes    and late charges. Claims receivables
sources to the extent that they were           an allowance for uncollectible accounts        (subrogated and rescheduled) are due from
payable to USAID from other agencies,          receivable for non-loan or revenue gener       foreign governments as a result of defaults
other governments and the public in            ating sources that have not been collected     for pre-1992 guaranteed loans. Receivables
exchange for goods and services rendered       for a period of over one year.                 are stated net of an allowance for uncol
to others. Imputed revenues are reported                                                      lectible accounts, determined using an
                                                                                              OMB approved net present value default
                                                                                              methodology.




                                                     USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                           73
While estimates of uncollectible loans and       L. PROPERTY, PLANT                             manner in which USAID’s loan programs
interest are made using methods prescribed       AND EqUIPmENT                                  finance their activities. The main purpose
by OMB, the final determination as to                                                           of CRA was to more accurately measure
whether a loan is collectible is also affected   USAID capitalizes all property, plant and      the cost of Federal credit programs and to
by actions of other U.S. Government              equipment that have an acquisition cost        place the cost of such programs on a
agencies.                                        of $25 thousand or greater and a useful        budgetary basis equivalent to other
                                                 life of two years or more. Acquisitions that   Federal spending. Consequently,
                                                 do not meet these criteria are recorded as     commencing in fiscal 1992, USAID
J. ADVANCES                                      operating expenses. Assets are capitalized     cannot make new loans or guarantees
                                                 at historical cost and depreciated using       without an appropriation available to
Funds disbursed in advance of incurred
                                                 the straight-line method. Real property        fund the cost of making the loan or
expenditures are recorded as advances.
                                                 is depreciated over 20 years, nonexpend        guarantee. This cost is known as “subsidy.”
Most advances consist of funds disbursed
                                                 able personal property is depreciated over
under letters of credit to contractors and                                                      For USAID’s loan guarantee programs,
                                                 three to five years, and capital leases are
grantees. The advances are liquidated and                                                       when guarantee commitments are made,
                                                 depreciated according to the terms of the
recorded as expenses upon receipt of expen                                                      an obligation for subsidy cost is recorded
                                                 lease. The Agency operates land, buildings,
diture reports from the recipients.                                                             in the program account. This cost is based
                                                 and equipment that are provided by the
                                                 General Services Administration. Rent for      on the net present value of the estimated
                                                 this property is expensed. Internal use        net cash outflows to be paid by the
K. INVENTORY AND                                                                                Program as a result of the loan guarantees,
                                                 software that has development costs of
RELATED PROPERTY                                 $300,000 or greater is capitalized. Deferred   except for administrative costs, less the net
                                                 maintenance amounts are immaterial with        present value of all cash inflows to be
USAID’s inventory and related property
                                                 respect to the financial statements.           generated from those guarantees.
is comprised of operating materials and
                                                                                                When the loans are disbursed, the subsidy
supplies. Some operating materials and
                                                                                                cost is disbursed from the program
supplies are held for use and consist
                                                 m. LIABILITIES                                 account to a financing account.
mainly of computer paper and other
expendable office supplies not in the                                                           For loan guarantees made before the CRA
                                                 Liabilities represent the amount of monies
hands of the user. USAID also has                                                               (pre-1992), the liability for loan guaran
                                                 or other resources that are likely to be
materials and supplies in reserve for                                                           tees represents an unfunded liability.
                                                 paid by USAID as the result of transac
foreign disaster assistance stored at                                                           Note 6, Direct Loan and Loan Guaran
                                                 tions or events that have already occurred.
strategic sites around the world. These                                                         tees, presents the unfunded amounts
                                                 However, no liability can be paid by the
consist of tents, vehicles, and water puri                                                      separate from the post-1991 liabilities.
                                                 Agency without an appropriation or
fication units. The Agency also has birth                                                       The amount of unfunded liabilities also
                                                 borrowing authority. Liabilities for which
control supplies stored at several sites.                                                       represents a future funding requirement
                                                 an appropriation has not been enacted
                                                 are therefore classified as liabilities not    for USAID. The liability is calculated
USAID’s office supplies are deemed items
                                                 covered by budgetary resources (unfunded       using a reserve methodology that is similar
held for use because they are tangible
                                                 liabilities), and there is no certainty        to OMB prescribed method for post-1991
personal property to be consumed in
                                                 that the appropriations will be enacted.       loan guarantees.
normal operations. Agency supplies held
in reserve for future use are not readily        Also, these liabilities can be abrogated
available in the market, or there is more        by the U.S. Government, acting in its
than a remote chance that the supplies           sovereign capacity.                            O. ANNUAL, SICK, AND
will be needed, but not in the normal                                                           OTHER LEAVE
course of operations. Their valuation is
based on cost and they are not considered        N. LIABILITIES fOR LOAN                        Annual leave is accrued as it is earned and
                                                 GUARANTEES                                     the accrual is reduced as leave is taken.
“held for sale.” USAID has no supplies
                                                                                                Each year, the balance in the accrued
categorizable as excess, obsolete, or unser
                                                 The Federal Credit Reform Act (CRA) of         annual leave account is adjusted to reflect
viceable operating materials and supplies.
                                                 1990, which became effective on October        current pay rates. To the extent that
                                                 1, 1991, has significantly changed the         current or prior year appropriations are




74                  USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
not available to fund annual leave earned      q. COmmITmENTS AND                              fiscal agent, monies the government has
but not taken, funding will be obtained        CONTINGENCIES                                   withheld awaiting distribution based on
from future financing sources. Sick leave                                                      legal determination, and unidentified
and other types of leave are expensed as       A contingency is an existing condition,         remittances credited as suspense items
taken.                                         situation or set of circumstances involving     outside the budget. For USAID, non
                                               uncertainty as to possible gain or loss to      entity assets are minimal in amount as
                                               USAID. The uncertainty will ultimately          reflected in Note 3, Accounts Receivable,
P. RETIREmENT PLANS                            be resolved when one or more future             Net, composed solely of accounts
AND POST EmPLOYmENT                            events occur or fail to occur. For pending,     receivables, net of allowances.
BENEfITS                                       threatened or potential litigation, a
                                               liability is recognized when a past trans
USAID recognizes its share of the cost         action or event has occurred, a future          T. AGENCY COSTS
of providing future pension benefits to        outflow or other sacrifice of resources
eligible employees over the period of                                                          USAID costs of operations are comprised
                                               is likely, and the related future outflow
time the employees provide the related                                                         of program and operating expenses.
                                               or sacrifice of resources is measurable.
services. The pension expense recog                                                            USAID/Washington program expenses
                                               For other litigations, a contingent liability
nized in the financial statements equals                                                       by objective are obtained directly from
                                               is recognized when similar events occur
the current service cost for USAID                                                             Phoenix, the Agency general ledger.
                                               except that the future outflow or other
employees for the accounting period less                                                       Mission related program expenses by
                                               sacrifice of resources is more likely than
the amount contributed by the employees.                                                       objective are obtained from Phoenix.
                                               not. Footnote 14 identifies commitments
The measurement of the service cost                                                            A cost allocation model is used to
                                               and contingency liabilities.
requires the use of an actuarial cost                                                          distribute operating expenses, including
method and assumptions. The Office of                                                          Management Bureau, Global Develop
Personnel Management (OPM) adminis             R. NET POSITION                                 ment Alliance, Trust Funds and Support
ters these benefits and provides the factors                                                   Offices costs to specific goals. Expenses
that USAID applies to report the cost.         Net position is the residual differ             related to Federal Credit Reform Act
The excess of the pension expense over         ence between assets and liabilities. It is      and Revolving Funds are directly applied
the amount contributed by USAID and            composed of unexpended appropriations           to specific agency goals based on their
employees represents the amount being          and cumulative results of operations.           objectives.
financed directly through the Civil Service    •	  Unexpended appropriations are the
Retirement and Disability Fund admin               portion of the appropriations repre
istered by OPM. This cost is considered                                                        U. PARENT/CHILD
                                                   sented by undelivered orders and
imputed cost to USAID.                                                                         REPORTING
                                                   unobligated balances.
USAID recognizes a current-period                                                              USAID is a party to allocation transfers
                                               •	  Cumulative results of operations are
expense for the future cost of post retire                                                     with other federal agencies as both a
                                                   also part of net position. This account
ment health benefits and life insurance for                                                    transferring (parent) entity and receiving
                                                   reflects the net difference between (1)
its employees while they are still working.                                                    (child) entity. Allocation transfers are
                                                   expenses and losses and (2) financing
USAID accounts for and reports this                                                            legal delegations by one department of
                                                   sources, including appropriations,
expense in its financial statements in a                                                       its ability to obligate budget authority
                                                   revenues and gains, since the inception
manner similar to that used for pensions,                                                      and outlay funds to another department.
                                                   of the activity.
with the exception that employees and                                                          A separate fund account (allocation
USAID do not make contributions to                                                             account) is created in the U.S. Treasury
fund these future benefits.                    S. NON-ENTITY ASSETS                            as a subset of the parent fund account
                                                                                               for tracking and reporting purposes.
Federal employee benefit costs paid            Non-entity fund balances are amounts in         All allocation transfers of balances are
by OPM and imputed by USAID are                Deposit Fund accounts. These include            credited to this account, and subsequent
reported on the Statement of Net Cost.         such items as: funds received from outside      obligations and outlays incurred by the
                                               sources where the government acts as            child entity are charged to this allocation




                                                     USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                           75
account as they execute the delegated          NOTE 2. fUND BALANCE wITH TREASURY
activity on behalf of the parent entity.
Generally, all financial activity related
to these allocation transfers (e.g. budget     Fund Balance with Treasury as of September 30, 2008 and 2007 consisted of the
authority, obligations, outlays) is reported   following:
in the financial statements of the parent
entity, from which the underlying legisla                                fUND BALANCE wITH TREASURY
tive authority, appropriations, and budget                                           (In Thousands)
apportionments are derived. Exceptions to
                                                fund Balance                                               2008              2007
this general rule affecting USAID include
the Executive Office of the President, for      Trust Funds                                           $      49,614     $      40,421
whom USAID is the child in the alloca           Revolving Funds                                            3,689,191         3,018,774
tion transfer but, per OMB guidance, will       Appropriated Funds                                        15,458,588        16,024,157
report all activity relative to these alloca    Other Funds                                                  (16,320)          48,005
tion transfers in USAID’s financial state
                                                Total                                                 $ 19,181,073      $ 19,131,357
ments. In addition to these funds, USAID
allocates funds as the parent to:               Status of fund Balance with Treasury                       2008              2007

                                                Unobligated Balance
•	  Department of Energy
                                                   Available                                          $ 2,408,423       $ 2,706,707
•	  Department of Justice
                                                   Unavailable                                             3,110,332         2,136,891
•	  Department of Labor                         Obligated and Other Balances                              13,662,318        14,287,759
                                                Not Yet Disbursed (Net)
•	  Department of State
                                                Total                                                 $ 19,181,073      $ 19,131,357
•	  Department of the Treasury
•	  Nuclear Regulatory Commission.
                                               The Fund Balance with Treasury are            Unobligated balances become available
USAID receives allocation transfers as         available to pay accrued liabilities and      when apportioned by the OMB for obli
the child from:                                finance authorized commitments relative       gation in the current fiscal year. Obligated
                                               to goods, services, and employee benefits.    and other balances not yet disbursed (net)
•	  Department of State                        Other Funds balance includes $39.3            include balances for non-budgetary funds
•	  Executive Office of the President          million in unapplied Suspense accounts        and unfilled customer orders without
                                               disbursements at FY 2008 year end.            advances. The unobligated and obligated
•	  Millennium Challenge Corporation                                                         balances are reflected on the Statement of
•	  United States Department of Agricul                                                      Budgetary Resources.
    ture, Commodity Credit Corporation.




76                 USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
NOTE 3. ACCOUNTS RECEIVABLE, NET
The primary components of USAID’s accounts receivable as of September 30, 2008 and 2007 are as follows:

                                                          ACCOUNTS RECEIVABLE, NET
                                                                        (In Thousands)

                                                                   Receivable                Allowance       Receivable Net        Receivable Net
                                                                     Gross                   Accounts             2008                  2007
 Intragovernmental
     Appropriation Reimbursements from Federal Agencies        $        761              $      N/A           $      761            $       761
     Accounts Receivable from Federal Agencies                      52,001                      N/A                52,001               255,538
     Less Intra-Agency Receivables                                 (52,542)                     N/A               (55,542)              (256,079)
 Total Intragovernmental                                                220                     N/A                  220                    220
 Accounts Receivable                                               275,242                    (8,213)             267,029               179,347
 Total Receivables                                             $   275,462               $    (8,213)         $   267,249           $   179,567



Entity intragovernmental accounts                    All other entity accounts receivable                receivable due from the public, which are
receivable consist of amounts due from               consist of amounts managed by missions              more than one year past due. Accounts
other U.S. Government agencies. No                   or USAID/Washington. These receiv                   receivable from missions are collected and
allowance accounts have been established             ables consist of non-program related                recorded to the respective appropriation.
for the intragovernmental accounts                   receivables such as overdue advances,
receivable, which are considered to be               unrecovered advances, audit findings,               Interest receivable is calculated separately,
100% collectible.                                    and any interest related to these types of          and there is no interest included in the
                                                     receivables. A 100% allowance for uncol             accounts receivable listed above.
                                                     lectible amounts is estimated for accounts



NOTE 4. OTHER ASSETS
Advances as of September 30, 2008 and 2007 consisted of the following:

                                            ADVANCES
                                             (In Thousands)
                                                                        2008                 2007
 Intragovernmental
                                                                                                         FY 2008 advances to Host Country
     Advances to Federal Agencies                                   $      1,753         $     4,532     Governments and Institutions represent
 Total Intragovernmental                                                   1,753               4,532     amounts advanced by USAID missions
     Advances to Contractors/Grantees                                   376,804              400,622     to host country governments and other
     Advances to host Country Governments and Institutions              114,122               94,898     in-country organizations, such as educa
     Advances, Other                                                       6,297               6,011     tional institutions and voluntary organiza
 Total with the Public                                                  497,223              501,531
                                                                                                         tions. Advances, Other consist primarily
                                                                                                         of amounts advanced for living quarters,
 Total Other Assets                                                 $   498,976          $   506,063
                                                                                                         travel, and home service.




                                                              USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                             77
NOTE 5. CASH AND OTHER mONETARY ASSETS
Cash and Other Monetary Assets as of September 30, 2008 and 2007 are as follows:

                                                  CASH AND OTHER mONETARY ASSETS
                                                                      (In Thousands)
 Cash and Other monetary Assets                                                                                      2008             2007
     Imprest Fund-headquarters                                                                                   $          5     $          4
     UE and Micro and Small Enterprise Fund Cash w/Fiscal Agent                                                             50               50
     Foreign Currencies                                                                                              302,573          288,025
 Total Cash and Other Monetary Assets                                                                            $   302,628      $   288,079


USAID has imprest funds in various                     provided to USAID’s by the Department         Foreign Currencies are related to Foreign
overseas locations. These funds are                    of State was $1.5 million in FY 2008 and      Currency Trust Funds and this totaled
provided by the Department of State                    $1.6 million in FY 2007. These imprest        to $302.6 million in FY 2008 and
overseas U.S. Disbursing Officers to                   funds are not included in USAID’s             $288.0 million in FY 2007. USAID does
which USAID is liable for any shortages.               Consolidated Balance Sheet.                   not have any non-entity cash or other
The cumulative balance of imprest funds                                                              monetary assets.




NOTE 6. DIRECT LOAN AND LOAN GUARANTEES,

NON-fEDERAL BORROwERS

USAID operates the following loan and/                 tions made prior to 1992 are reported as      changes in risk and interest rate assump
or loan guarantee programs:                            a liability.                                  tions. Direct loans are reported net of an
                                                                                                     allowance for this subsidy cost (allowance
•	  Direct Loan Program (Direct Loan)                  The Federal Credit Reform Act of 1990         for subsidy). The subsidy costs associated
                                                       prescribes an alternative method of           with loan guarantees are reported as loan
•	  Urban and Environmental Program                    accounting for direct loans and guar
    (UE)                                                                                             guarantee liability.
                                                       antees resulting from obligations made
•	  Micro and Small Enterprise Develop                 after 1991. Subsidy cost, which is the        An analysis of loans receivable, loan guar
    ment Program (MSED)                                net present value of the cash flows (i.e.     antees, liability for loan guarantees, and
                                                       interest rates, interest supplements,         the nature and amounts of the subsidy
•	  Israel Loan Guarantee Program                      estimated defaults, fees, and other cash      costs associated with the loans and loan
    (Israel Loan)                                      flows) associated with direct loans and       guarantees are provided in the following
                                                       guarantees, is required by the Act to be      sections.
•	  Development Credit Authority                       recognized as an expense in the year in
    Program (DCA)                                      which the direct loan or guarantee is         The following net loan receivable amounts
                                                       disbursed. Subsidy cost is calculated by      are not the same as the proceeds that
•	  Egypt Loan Guarantee Program                                                                     USAID would expect to receive from
                                                       agency program offices prior to obligation
Direct loans resulting from obligations                using a model prescribed by the Office        selling its loans. Actual proceeds may
made prior to 1992 are reported net of                 of Management and Budget (OMB).               be higher or lower depending on the
allowance for estimated uncollectible                  Subsidy relating to existing loans and        borrower and the status of the loan.
loans. Estimated losses from defaults on               guarantees is generally required to be rees
loan guarantees resulting from obliga                  timated on an annual basis to adjust for




78                    USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
                                                SUmmARY Of LOANS RECEIVABLES, NET
                                                                       (In Thousands)
                                                                                                            2008                 2007
Net Direct Loans Obligated Prior to 1992 (Allowance for Loss Method)                                    $ 3,489,183          $ 3,824,147
Net Direct Loans Obligated After 1991 (Present Value Method)                                                282,738              308,427
Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method)                             216,741              278,064
Total Loans Receivable, Net as reported on the Balance Sheet                                            $ 3,988,662          $ 4,410,638



DIRECT LOANS


                                                                   DIRECT LOANS
                                                                       (In Thousands)
                                                                                                                           Value of Assets
                                                                    Loans                                                    Related to
                                                                  Receivables            Interest     Allowance for         Direct Loans,
Loan Programs                                                       Gross               Receivable     Loan Losses              Net

Direct Loans Obligated Prior to 1992 (Allowance for Loss method) as of September 30, 2008:

   Direct Loans                                                    $ 4,429,500          $   346,969     $ 1,287,285          $ 3,489,183

   MSED                                                                     29                  32                 61                   —

   Total                                                           $ 4,429,529          $   347,001     $ 1,287,346          $ 3,489,183


Direct Loans Obligated Prior to 1992 (Allowance for Loss method) as of September 30, 2007:

   Direct Loans                                                    $ 4,900,067          $   329,209     $ 1,405,129          $ 3,824,147

   MSED                                                                     29                  32                 61                    –

   Total                                                           $ 4,900,096          $   329,241     $ 1,405,190          $ 3,824,147


Direct Loans Obligated After 1991 as of September 30, 2008:
   Direct Loans                                                    $ 1,165,515          $     5,138     $   887,732          $   282,921
   MSED                                                                    150                  24              357                 (183)
   Total                                                           $ 1,165,665          $     5,162     $   888,089          $   282,738


Direct Loans Obligated After 1991 as of September 30, 2007:
   Direct Loans                                                    $ 1,045,654          $     4,330     $   741,374          $   308,610
   MSED                                                                    150                  24              357                 (183)
   Total                                                           $ 1,045,804          $     4,354     $   741,731          $   308,427



                                           TOTAL AmOUNT Of DIRECT LOANS DISBURSED
                                                                       (In Thousands)
Direct Loan Programs                                                                                        2008                 2007
   Direct Loans                                                                                         $ 5,595,015          $ 5,945,721
   MSED                                                                                                         179                  179
   Total                                                                                                $ 5,595,194          $ 5,945,900




                                                               USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                      79
                          SCHEDULE fOR RECONCILING SUBSIDY COST ALLOwANCE BALANCES
                                           (POST-1991 DIRECT LOANS)
                                                                       (In Thousands)
                                                                                        2008                                      2007
                                                                      Direct                                  Direct
                                                                      Loan              mSED      Total       Loan                mSED          Total
Beginning Balance, Changes, and Ending Balance
Beginning Balance of the Subsidy Cost Allowance                   $ 741,374         $     357   $ 741,731    $ 745,777        $     (10)     $ 745,767
Add: Subsidy Expense for Direct Loans Disbursed During
the Reporting Years by Component:
     (A) Interest Rate Differential Costs                                 —                —          —                 –                –           –
     (B) Default Costs (Net of Recoveries)                                —                —          —                 –                –           –
     (C) Fees and Other Collections                                       —                —          —                 –                –           –
     (D) Other Subsidy Costs                                              —                —          —                 –                –           –
 T
 otal of the Above Subsidy Expense Components                             —                —          —                 –                –           –
Adjustments:
     (A) Loan Modifications                                            26,648              —      26,648           16,133                –      16,133
     (B) Fees Received                                                    —                —          —                 –                –           –
     (C) Foreclosed Property Acquired                                     —                —          —                 –                –           –
     (D) Loans Written Off                                                —                —          —           (39,020)               –     (39,020)
     (E) Subsidy Allowance Amortization                                 6,784              —        6,784          18,485           367         18,852
     (F) Other                                                         86,278              —      86,278                –                –           –
Ending Balance of the Subsidy Cost Allowance Before Reestimates       861,084             357    861,444          741,374           357        741,731
Add or Subtract Subsidy Reestimates by Component:
     (A) Interest Rate Reestimate                                         —                —          —                 –                –           –
     (B) Technical/Default Reestimate                                     —                —          —                 –                –           –
 T
 otal of the Above Reestimate Components                                  —                —          —                 –                –           –
Ending Balance of the Subsidy Cost Allowance                      $ 861,084         $     357   $ 861,444    $ 741,374        $     357      $ 741,731




                                                      DEfAULTED GUARANTEED LOANS
                                                                       (In Thousands)
                                                     Defaulted                                                               Value of Assets Related
                                                    Guaranteed                                         Allowance                  to Defaulted
                                                  Loans Receivable,              Interest              for Loan                Guaranteed Loans
 Loan Guarantee Programs                               Gross                    Receivable              Losses                   Receivable, Net

 Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss method): 2008
 UE                                                 $ 272,727                   $   66,632            $ 122,618                    $ 216,741
 Total                                              $ 272,727                   $   66,632            $ 122,618                    $ 216,741


 Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss method): 2007
 UE                                                 $ 387,894                   $   59,143            $ 168,973                    $ 278,064
 Total                                              $ 387,894                   $   59,143            $ 168,973                    $ 278,064




80                       USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
DEfAULTED GUARANTEED LOANS fROm POST-1991 GUARANTEES
In 2008, the UE Program had $3.6 million in defaults on payments.

In 2007, the UE Program had $3.6 million in defaults on payments.


GUARANTEED LOANS OUTSTANDING:

                                       GUARANTEED LOANS OUTSTANDING
                                                         (In Thousands)
                                                                            Outstanding                Amount of
                                                                              Principal,               Outstanding
                                                                          Guaranteed Loans,             Principal
Loan Guarantee Programs                                                      face Value                Guaranteed

Guaranteed Loans Outstanding (2008):
UE                                                                           $ 1,220,669               $ 1,220,669
MSED                                                                                17,010                      8,505
Israel                                                                           12,493,872                12,493,872
DCA                                                                                264,480                    104,625
Egypt                                                                             1,250,000                  1,250,000
Total                                                                        $ 15,246,031              $ 15,077,671


Guaranteed Loans Outstanding (2007):
UE                                                                           $ 1,330,189               $ 1,330,189
MSED                                                                                17,010                      8,505
Israel                                                                           12,700,332                12,700,332
DCA                                                                               1,282,332                   498,517
Egypt                                                                             1,250,000                  1,250,000
Total                                                                        $ 16,579,863              $ 15,787,543


New Guaranteed Loans Disbursed (2008):
DCA                                                                          $      75,831             $       30,333
Total                                                                        $      75,831             $       30,333


New Guaranteed Loans Disbursed (2007):
DCA                                                                          $     129,455             $       51,782
Total                                                                        $     129,455             $       51,782




                                                 USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION               81
                                        LIABILITY fOR LOAN GUARANTEES
                                                          (In Thousands)
                                                     Liabilities for Losses          Liabilities for
                                                         on Pre-1992               Loan Guarantees                    Total
                                                         Guarantees,                 for Post-1991                  Liabilities
                                                      Estimated future                Guarantees,                   for Loan
           Loan Guarantee Programs                      Default Claims              Present Value                  Guarantees

Liability for Loan Guarantees (Estimated future Default Claims for pre-1992 guarantees) as of September 30, 2008:
UE                                                         $    97,745                 $    138,058                $    235,803
MSED                                                                —                           412                          412
Israel                                                              —                      1,160,452                   1,160,452
DCA                                                                 —                        25,972                      25,972
Egypt                                                               —                       184,237                     184,237
Total                                                      $    97,745                 $ 1,509,131                 $ 1,606,876



Liability for Loan Guarantees (Estimated future Default Claims for pre-1992 guarantees) as of September 30, 2007:
UE                                                         $   124,794                 $    138,203                $    262,997
MSED                                                                –                         (3,884)                     (3,884)
Israel                                                              –                      1,386,173                   1,386,173
DCA                                                                 –                        14,617                      14,617
Egypt                                                               –                       163,429                     163,429
Total                                                      $   124,794                 $ 1,698,538                 $ 1,823,332




SUBSIDY ExPENSE fOR LOAN GUARANTEES BY PROGRAm AND COmPONENT:

              SUBSIDY ExPENSE fOR LOAN GUARANTEES BY PROGRAm AND COmPONENT
                                                          (In Thousands)
                                   Interest                                fees and Other
  Loan Guarantee Programs        Supplements             Defaults            Collections                   Other             Total

Subsidy Expense for New Loan Guarantees (2008):
DCA                               $       –          $     1,575             $     –                   $       –         $     1,575
Total                             $       –          $     1,575             $     –                   $       –         $     1,575



Subsidy Expense for New Loan Guarantees (2007):
DCA                               $       –          $     6,935             $     –                   $       –         $     6,935
Total                             $       –          $     6,935             $     –                   $       –         $     6,935




82              USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
     SUBSIDY ExPENSE fOR LOAN GUARANTEES BY PROGRAm AND COmPONENT (CONTINUED)
                                                        (In Thousands)
                                                      Total                  Interest Rate          Technical            Total
Loan Guarantee Programs                            modifications              Reestimates          Reestimates        Reestimates
modifications and Reestimates (2008):
  UE                                                $           –            $         –           $     8,351         $       8,351
  Israel                                                        –                      –                 2,227                 2,227
  Egypt                                                         –                      –                11,663                11,663
  Total                                             $           –            $         –           $    22,241         $      22,241


modifications and Reestimates (2007):
  UE                                                $           –            $         –           $            –      $              –
  MSED                                                          –                      –                 1,408                 1,408
  DCA                                                           –                      –                        –                     –
  Israel                                                        –                      –                 9,035                 9,035
  Egypt                                                         –                      –                        –                     –
  Total                                             $           –            $         –           $    10,443         $      10,443




                                TOTAL LOAN GUARANTEE SUBSIDY ExPENSE
                                                        (In Thousands)
Loan Guarantee Programs                                                                                2008                2007
   DCA                                                                                             $    1,575         $       6,935
   UE                                                                                                   8,351                    –
   MSED                                                                                                    –                  1,408
   Israel                                                                                               2,227                 9,035
   Egypt                                                                                               11,663                    –
   Total                                                                                           $   23,816         $    17,378




SUBSIDY RATES fOR LOAN GUARANTEES BY PROGRAm AND COmPONENT:

BUDGET SUBSIDY RATES fOR LOAN GUARANTEES fOR THE CURRENTYEAR’S COHORTS (PERCENT)
                                                                          fees and
                                  Interest                                 Other
                                Supplements                              Collections
Loan Guarantee Programs             (%)         Defaults (%)                 (%)           Other (%)                Total (%)

   DCA                                  –           3.30%                        –             –                      3.30%




                                              USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                                   83
                        SCHEDULE fOR RECONCILING LOAN GUARANTEE LIABILITY BALANCES
                                                                     (In Thousands)
                    (Post-1991 Loan Guarantees)                             DCA             mSED          UE          Israel        Egypt         Total
                                                                    2008
Beginning Balance, Changes, and Ending Balance
Beginning Balance of the Loan Guarantee Liability                          $ 14,617     $    (3,884)   $ 138,202    $1,386,173     $ 163,430    $1,698,538
Add: Subsidy Expense for Guaranteed Loans Disbursed During the
    Reporting Years by Component:
    (A) Interest Supplement Costs                                                —              —              —           —              —             —
    (B) Default Costs (Net of Recoveries)                                        —              —              —           —              —             —
    (C) Fees and Other Collections                                               —              —              —           —              —             —
    (D) Other Subsidy Costs                                                   1,575             —              —           —              —          1,575
Total of the Above Subsidy Expense Components                                16,192          (3,884)     138,202     1,386,173       163,430     1,700,113
Adjustments:
    (A) Loan Guarantee Modifications                                             —              —             —            —              —             —
    (B) Fees Received                                                           962             14         1,911           —              —          2,887
    (C) Interest Supplements Paid                                                —              —             —            —              —             —
    (D) Foreclosed Property and Loans Acquired                                   —              —             —            —              —             —
    (E) Claim Payments to Lenders                                             2,156             —          3,589           —              —          5,745
    (F) Interest Accumulation on the Liability Balance                           —              —          4,782       75,859          7,010        87,651
    (G) Other                                                                 6,662          4,282       (29,015)    (178,206)            —       (196,277)
Ending Balance of the Loan Guarantee Liability Before Reestimates            25,972            412       119,469     1,283,826       170,440     1,600,119
Add or Subtract Subsidy Reestimates by Component:
   (A) Interest Rate Reestimate                                                  —              —             —            —              —             —
   (B) Technical/Default Reestimate                                              —              —         18,589     (123,374)        13,797       (90,988)
Total of the Above Reestimate Components                                         —              —             —             —             —             —
Ending Balance of the Loan Guarantee Liability                             $ 25,972     $      412     $ 138,058    $1,160,452     $ 184,237    $1,509,131


                                                                    2007
Beginning Balance, Changes, and Ending Balance
Beginning Balance of the Loan Guarantee Liability                          $ 10,812     $    (2,152)   $ 155,428    $1,169,364     $ 170,191    $1,503,643
Add: Subsidy Expense for Guaranteed Loans Disbursed During the
    Reporting Years by Component:
    (A) Interest Supplement Costs                                                 –              –             –               –           –             –
    (B) Default Costs (Net of Recoveries)                                         –              –             –               –           –             –
    (C) Fees and Other Collections                                                –              –             –               –           –             –
    (D) Other Subsidy Costs                                                   6,935              –             –               –           –         6,935
Total of the Above Subsidy Expense Components                                 6,935              –             –               –           –         6,935
Adjustments:
    (A) Loan Guarantee Modifications                                               –              –            –            –              –             –
    (B) Fees Received                                                          1,043             45        2,069            –              –         3,157
    (C) Interest Supplements Paid                                                  –              –            –            –              –             –
    (D) Foreclosed Property and Loans Acquired                                     –              –            –            –              –             –
    (E) Claim Payments to Lenders                                             (1,442)          (420)      (3,590)           –              –        (5,452)
    (F) Interest Accumulation on the Liability Balance                         3,088            460        6,116       73,504          7,301        90,469
    (G) Other                                                                 (5,819)        (3,740)      13,901            –              –         4,342
Ending Balance of the Loan Guarantee Liability Before Reestimates            14,617          (5,807)     173,924     1,242,868       177,492     1,603,094
Add or Subtract Subsidy Reestimates by Component:
   (A) Interest Rate Reestimate                                                   –              –             –            –              –             –
   (B) Technical/Default Reestimate                                               –          1,923       (35,722)     143,305        (14,062)       95,444
Total of the Above Reestimate Components                                          –           1,923      (35,722)      143,305       (14,062)       95,444
Ending Balance of the Loan Guarantee Liability                             $ 14,617     $    (3,884)   $ 138,202    $1,386,173     $ 163,430    $1,698,538


84                     USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
                                                      ADmINISTRATIVE ExPENSE
                                                                  (In Thousands)
 Loan Programs                                                                                               2008                 2007
    DCA                                                                                                  $    9,774           $   12,244
    Total                                                                                                $    9,774           $   12,244



OTHER INfORmATION                                    million that is more than six months           receivable for countries in violation
                                                     delinquent. Eight countries are in             of the Brooke Amendment totaled
1. Allowance for Loss for Liquidating                violation of the Brooke-Alexander              $320.7 million.
   account (pre-Credit Reform Act)                   Amendment to the Foreign Opera
   receivables have been calculated in               tions Export Financing and Related           2. The MSED Liquidating Account
   accordance with OMB guidance using                Programs Appropriations Act, owing              general ledger has a loan receivable
   a present value method which assigns              $372.6 million that is more than                balance of $29 thousand. This includes
   risk ratings to receivables based upon            one year delinquent. Outstanding                a loan pending closure. This loan
   the country of debtor. Eight countries            direct loans receivable for countries in        is being carried at 100% bad debt
   are in violation of Section 620q of the           violation of Section 620q totaled $16.8         allowance.
   Foreign Assistance Act, owing $23.1               million. Outstanding direct loans




NOTE 7. INVENTORY AND RELATED PROPERTY, NET
USAID’s Inventory and Related Property is comprised of Operating Materials and Supplies.
Operating Materials and Supplies as of September 30, 2008 and 2007 are as follows:

                                                 INVENTORY AND RELATED PROPERTY
                                                                  (In Thousands)
                                                                                                             2008                 2007
 Items Held for Use
    Office Supplies                                                                                      $    9,858           $   12,783
 Items Held in Reserve for future Use
    Disaster Assistance Materials and Supplies                                                                5,591                7,599
    Birth Control Supplies                                                                                   17,280               15,371
 Total                                                                                                   $   32,729           $   35,753



Operating Materials and Supplies are               valuation is based on historical acquisition   restrictions on their use. Inventory costing
considered tangible properties that                costs that do not exceed capitalization        less than $25 thousand is expensed as
are consumed in the normal course                  criteria of $25 thousand. There are no         incurred.
of business and not held for sale. The             items obsolete or unserviceable, and not




                                                         USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                          85
NOTE 8. GENERAL PROPERTY, PLANT AND EqUIPmENT, NET
The components of Property, Plant & Equipment (PP&E) as of September 30, 2008 and 2007 are as follows:

                                           GENERAL PROPERTY, PLANT AND EqUIPmENT, NET
                                                                  (In Thousands)
                                                                                                              Net Book          Net Book
                                                                                         Accumulated           Value             Value
                                                        Useful Life           Cost       Depreciation           2008              2007
 The components of PP&E as of September 30, 2008 are as follows:
 Classes of fixed Assets
     Equipment                                           3 to 5 years    $    82,876    $    (62,243)     $    20,633       $    31,571
     Buildings, Improvements, and Renovations              20 years           76,383         (39,782)          36,601            38,314
     Land and Land Rights                                   N/A                2,456           N/A              2,456             2,456
     Assets Under Capital Lease (Note 9)                                       6,002          (1,505)           4,497             5,537
     Construction in Progress                               N/A                    –               –                –              570
     Internal Use Software                               3 to 5 years         67,676         (37,594)          30,082            10,050
 Total                                                                   $   235,393    $ (141,124)       $    94,269       $    88,498



The threshold for capitalizing or amor            USAID PP&E includes assets located in         office buildings and residences at foreign
tizing assets is $25 thousand. Assets             Washington, D.C. offices and overseas         missions, including the land on which
purchased prior to FY 2003 are depreci            field missions.                               these structures reside. These structures
ated using the straight line deprecia                                                           are used and maintained by the field
tion method. Assets purchased during              Equipment consists primarily of electric      missions. USAID does not separately
FY 2003 and beyond are depreciated                generators, Automatic Data Processing         report the cost of the building and the
using the mid-quarter convention depre            (ADP) hardware, vehicles and copiers          land on which the building resides.
ciation method. Depreciable assets are            located at the overseas field missions.
assumed to have no remaining salvage              Note 9 discusses USAID leases.                Land consists of property owned by
value. There are currently no restrictions                                                      USAID in foreign countries. Land is
                                                  Line items Buildings, Improvements,           generally procured with the intent of
on PP&E assets.
                                                  and Renovations in addition to Land           constructing of buildings.
                                                  and Land Rights include USAID owned




86                    USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
NOTE 9. LEASES
As of September 30, 2008 and 2007 Leases consisted of the following:

                                                                      LEASES
                                                                    (In Thousands)
Entity as Lessee
   Capital Leases:                                                                                        2008               2007
   Summary of Assets Under Capital Lease:
      Buildings                                                                                       $     6,002        $     8,190
      Accumulated Depreciation                                                                             (1,505)            (2,653)
   Net Assest under Capital Leases                                                                    $     4,497        $     5,537

Description of Lease(s) Arrangements: Capital leases consist of rental ageements entered into by missions for warehouses, parking
lots, residential space, and office buildings. These leases are one year or more in duration.
   future Payments Due:                                                                                   2008               2007
   fiscal Year                                                                                        future Costs       future Costs
      2008                                                                                            $        –         $      297
      2009                                                                                                   297                297
      2010                                                                                                   297                297
      2011                                                                                                   231                232
      2011                                                                                                    52                 52
      2013                                                                                                   972                  –
      After 5 Years                                                                                          768                 77
   Net Capital Lease Liability (Note 12)                                                                    2,617              1,252
   Lease Liabilities Covered by Budgetary Resources                                                   $     2,617        $     1,252


   Operating Leases:
   future Payments Due:                                                                                   2008               2007
   fiscal Year                                                                                        future Costs       future Costs
      2008                                                                                            $         –        $    33,668
      2009                                                                                                 62,162             35,003
      2010                                                                                                 58,012             36,391
      2011                                                                                                 55,226             37,769
      2012                                                                                                 52,630             39,090
      2013                                                                                                 41,332                  –
      After 5 Years                                                                                        19,642             40,677
   Total Future Lease Payments                                                                        $   289,004        $   222,598



Operating lease payments total $289                   agreement is for approximately 550,000     USAID’s occupancy. Lease payments for
million in future lease payment, $255                 sq. feet and will expire in FY 2010. The   FY 2008 and FY 2007 amounted to $40.7
million is for the USAID headquarters                 lessor, General Services Administartion    million and $40.6 million, respectively.
in Washington, D.C. The current lease                 (GSA), charges commercial rates for




                                                            USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                   87
NOTE 10. LIABILITIES COVERED AND NOT
COVERED BY BUDGETARY REOURCES
USAID records liabilities for amounts that              Liabilities not covered by budgetary         resources. The Contingent Liabilities
are likely to be paid as the direct result of           resources include accrued unfunded           for Loan Guarantees is in the pre-Credit
events that have already occurred. USAID                annual leave and seperation pay. Although    Reform Urban and Environmental (UE)
considers the Intragovernmental accounts                future appropriations to fund these          Housing Loan Guarantee liquidating
payable as the liabilities covered. These               liabilities are probable and anticipated,    fund. As such, it represents the estimated
accounts payables are those payable to                  Congressional action is needed before        liability to lenders for future loan
other federal agencies and consist mainly               budgetary resources can be provided.         guarantee defaults in that program.
of unliquidated obligation balances                     Accrued unfunded annual leave, workmen
related to interagency agreements between               compensation benefits, and separation pay    As of September 30, 2008 and 2007,
USAID and other federal agencies. The                   represent future liabilities not currently   liabilities covered and not covered by
accounts payable with the public represent              funded by budgetary resources, but will      budgetary resources were as follows:
liabilities to other non-federal entities.              be funded as it becomes due with future


                            LIABILITIES COVERED AND NOT COVERED BY BUDGETARY RESOURCES
                                                                       (In Thousands)
                                                                                                           2008                   2007
 Intragovernmental
     Accounts Payable                                                                                  $     48,375           $     62,099
     Disbursements in Transit                                                                                     14                     2
 Total Intragovernmental                                                                                     48,389                 62,101

 Accounts Payable                                                                                          1,856,887              2,341,025
 Disbursements in Transit                                                                                    12,987                 26,932
 Total with the Public                                                                                     1,869,874              2,367,957
 Total Other                                                                                               6,265,740              6,817,577
 Total Liabilities Covered by Budgetary Resources                                                      $ 8,184,003            $ 9,247,635

 Liabilities Not Covered by Budgetary Resources
 Accrued Annual Leave                                                                                  $     59,972           $     24,563
 FSN Separation Pay Liability                                                                                 4,543                    852
 Total Accrued Unfunded Annual Leave and Separation Pay                                                      64,515                 25,415
 Accrued Unfunded Workers Compensation Benefits (Note 13)                                                    34,848                 36,337
 Debt - Contingent Liabilities for Loan Guarantees                                                           97,745                124,793
 Total Liabilities Not Covered by Budgetary Resources                                                       197,108                186,545
 Total Liabilities                                                                                     $ 8,381,111            $ 9,434,180




88                       USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
NOTE 11. DEBT
USAID Intragovernmental Debt as of September 30, 2008 and 2007 consisted of the following borrowings from Treasury for
post-1991 loan programs, which is classified as other debt:

                                                   INTRAGOVERNmENTAL DEBT
                                                             (In Thousands)

                                       2007                                2007                        Accrued              2008
                                     Beginning          Net               Ending           Net         Interest            Ending
     Debt Due to Treasury             Balance        Borrowing            Balance       Borrowing        Paid              Balance
 Direct Loan                        $    474,055     $    24,451      $       498,506   $    3,241     $    (24,447)   $     477,300
 DCA                                           –               –                    –          72                 –              72
 Total Treasury Debt                $    474,055     $    24,451      $       498,506   $    3,313     $    (24,447)   $     477,372



Pursuant to the Federal Credit Reform Act      In FY 2007, $24.5 million in accrued         account borrowings from Treasury under
of 1990, agencies with credit programs have    interest was included in the Direct          the Federal Credit Reform Act and net
permanent indefinite authority to borrow       Loan balance, which was $24.5 million        liquidating account equity in the amount
funds from the Treasury. These funds are       in accrued interest paid for FY 2008.        of $3.7 billion, which under the Act
used to disburse new direct loans to the       The FY 2007 ending Direct Loan balance       is required to be recorded as Due to
public and, in certain situations, to cover    above has been adjusted to reflect the       Treasury. All debt shown is intragovern
credit reform program costs. Liquidating       payment. The ending FY 2008 DCA              mental debt.
(pre-1992) accounts have permanent indefi      loan balance has accrued $4 thousand in
nite borrowing authority to be used to cover   interest payable to Treasury. The above
program costs when they exceed account         disclosed debt is principal payable to
resources.                                     Treasury, which represents financing




                                                     USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                         89
NOTE 12. OTHER LIABILITIES
As of September 30, 2008 and 2007 Other Liabilities consisted of the following:

                                        OTHER LIABILITIES
                                             (In Thousands)
                                                                  2008           2007
 Intragovernmental
     IPAC Suspense                                            $          –   $     51,481
     Unfunded FECA Liability                                        5,648           6,469
     Credit Program                                               126,228         149,431
     Custodial Liability                                           14,451               –
     Other                                                         13,110           8,624
 Total Intragovernmental                                      $   159,437    $    216,005
     Accrued Funded Payroll and Leave (Note 13)                    13,579          14,055
     Unfunded Leave (Note 10)                                      64,515          25,415
     Advances From Others                                           1,114             986
     Deferred Credits                                              12,893          10,095
     Foreign Currency Trust Fund                                  302,708         288,171
     Capital Lease Liability (Note 9)                               2,617           1,252
     Custodial Liability                                                 –          2,617
     Other Liabilities                                             62,551          56,031
 Total Liabilities With the Public                            $   459,977    $    398,622

 Total Other Liabilities                                      $   619,414    $    614,627




All liabilities are current. Intragovernmental Liabilities represent amounts due to other
federal agencies. All remaining Other Liabilities are liabilities to non-federal entities.

Unfunded leave components are shown in note 10.

For FY 2007, the IPAC balance was recorded as a net account receivable to USAID
for a total of $5.5 million.




90                         USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
NOTE 13. fEDERAL EmPLOYEES AND VETERAN’S BENEfITS

The provision for workers’ compensation             employees injured on the job and to           For FY 2008, USAID’s total FECA liability
benefits payable, as of September 30,               beneficiaries of employees whose deaths       was $34.8 million and comprised of unpaid
2008 and 2007 are indicated in the table            are attributable to job-related injury or     FECA billings for $21.3 million and esti
below. These liabilities are included in            disease. The FECA program is adminis          mated future FECA costs of $13.5 million.
the Intragovernmental Other Liabilities             tered by the Department of Labor (DOL).
line item on the Consolidated Balance               DOL initially pays valid FECA claims          For FY 2007, USAID’s total FECA
Sheet and are not covered by budgetary              for all Federal government agencies and       liability was $36.3 million and comprised
resources.                                          seeks reimbursement two fiscal years later    of unpaid FECA billings for $22.3 million
                                                    from the Federal agencies employing the       and estimated future FECA costs of
The Federal Employees Compensation                  claimants.                                    $14.0 million.
Act (FECA) provides income and medical
cost protection to covered federal civilian                                                       The actuarial estimate for the FECA
                                                                                                  unfunded liability is determined by the
                                                                                                  DOL using a method that utilizes historical
    ACCRUED UNfUNDED wORKERS’ COmPENSATION BENEfITS                                               benefit payment patterns. The projected
                                            (In Thousands)                                        annual benefit payments are discounted to
                                                                   2008             2007          present value using economic assumption
                                                                                                  for 10-year Treasury notes and bonds and
 Liabilities Not Covered by Budgetary Resources
                                                                                                  the amount is further adjusted for inflation.
    Future Workers’ Compensation Benefits                      $    21,269      $      22,282
                                                                                                  Currently, the projected number of years of
    Accrued Funded Payroll and Leave (Note 12)                      13,579             14,055
                                                                                                  benefit payments is 37 years.
    Total Accrued Unfunded Workers’ Compensation Benefits      $    34,848      $      36,337




NOTE 14. COmmITmENTS AND CONTINGENCIES

USAID is involved in certain claims, suits,         •	  The third case is a companion case.       Four of the remaining cases have a remote
and complaints that have been filed or are              A contractor seeks compensation for       likelihood of unfavorable outcome.
pending. These matters are in the ordinary              efforts and expenses it claims to have    During the fourth quarter in FY 2008
course of the Agency’s operations and are               incurred under a terminated host          one federal case was resolved. This is
not expected to have a material adverse                 country contract with the Honduran        a case where USAID disallowed costs
effect on the Agency’s financial operations.            government. The estimated loss is         already paid to a contractor for incu
                                                        $1.8 million.                             bators that were installed in Egyptian
As of September 30, 2008 a total of nine                                                          hospitals but which quickly proved unsafe
cases were pending.                                 •	  The fourth case is an appeal of the       and was removed from the hospitals.
                                                        Contracting Officer’s disallowance        The estimated loss was $1 million, and
Five cases have been designated as reason               of the costs of supplemental Acci         USAID settled the case for $325,000 by
ably possible, a total of $11.2 million:                dental Death and Dismemberment            mutual agreement. The settled amount
                                                        and Business Travel Insurance for         was paid by Treasury on behalf of USAID
•	  The first case is a contract claim
                                                        contractor employees related to initial   in the fourth quarter of 2008.
    arising out of a contractor’s contract
                                                        deployment to Iraq. The estimated loss
    to repair and operate an Iraqi port.
                                                        is over $1 million.
    The estimated loss is $4.4 million.
                                                    •	  The fifth case is a case where a
•	  The second case is a contract claim
                                                        contractor seeks costs that were
    that USAID wrongfully withheld
                                                        incurred by one of its subcontractors;
    payment for invoices submitted under
                                                        however USAID disputes those costs as
    “Hurricane Mitch” host-country,
                                                        unsubstantiated. The estimated loss is
    contract in Honduras. The estimated
                                                        $1.8 million.
    loss is $2.2 million.


                                                             USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                      91
NOTE 15. INTRAGOVERNmENTAL COSTS AND 

ExCHANGE REVENUE 

The Consolidated Statement of Net Cost            Note 15 replaced Note 17 which shows                    Intragovernmental costs and exchange
reports the Agency’s gross costs less earned      the value of exchange transactions                      revenue sources relate to transactions
revenues to arrive at net cost of operations      between USAID and other Federal                         between USAID and other Federal entities.
by Objective and Program Area, as of              entities as well as non-Federal entities.               Public costs and exchange revenues on the
September 30, 2008. These objectives are          These are also categorized by Objec                     other hand relate to transactions between
consistent with the new State-USAID’s             tives, Program Areas and Responsibility                 USAID and non-Federal entities.
Strategic Planning Framework.                     Segments. Responsibility Segments are
                                                  defined in Note 16.
The format of the Consolidated Statement
of Net Cost is consistent with OMB
Circular A-136 guidance.

                                   INTRAGOVERNmENTAL COSTS AND ExCHANGE REVENUE
                                             BY RESPONSIBILITY SEGmENT
                                                 For the Years Ended September 30, 2008 and 2007
                                                                   (In Thousands)
                                                                                                                          Latin
                                                           Asia &                             Europe                     America
                                                           middle                               &         Global            &             2008           2007
 Objective                                    Africa        East       DCHA        EGAT       Eurasia     Health        Caribbean         Total          Total

 Peace and Security
   Intragovernmental Costs                $       1,236 $    8,298 $      2,570 $   213 $ 2,402 $                 — $ 4,704          $       19,423 $   12,294
   Public Costs                                  43,492    571,224       50,214   1,965    69,133                 —   91,525                827,553    447,917
      Total Program Costs                        44,728    579,522       52,784   2,178    71,535                 —   96,229                846,976    460,211
   Intragovernmental Earned Revenue                 (94)      (769)        (106)     (14)    (254)                —     (500)                (1,737)      (751)
   Public Earned Revenue                            (23)      (188)         (26)      (3)     (62)                —     (122)                  (424)      (395)
      Total Earned Revenue                         (117)      (957)        (132)     (17)    (316)                —     (622)                (2,161)    (1,146)
 Net Program Costs                              44,611    578,565       52,652    2,161   71,219                  —  95,607                844,815    459,065

 Governing Justly and Democratically
   Intragovernmental Costs                        5,685      11,651       2,351       409        9,205            —         3,204            32,505         39,204
   Public Costs                                 168,959     885,368      67,471     3,310      158,431            —        97,878         1,381,417      1,267,341
      Total Program Costs                       174,644     897,019      69,822     3,719      167,636            —       101,082         1,413,922      1,306,545
   Intragovernmental Earned Revenue                (463)     (1,257)       (144)       (24)       (871)           —          (294)           (3,053)        (2,225)
   Public Earned Revenue                           (113)       (308)        (35)        (6)       (213)           —           (72)             (747)        (1,273)
      Total Earned Revenue                         (576)     (1,565)       (179)       (30)     (1,084)           —          (366)           (3,800)        (3,498)
 Net Program Costs                             174,068     895,454      69,643      3,689     166,552             —      100,716         1,410,122      1,303,047

 Investing in People
    Intragovernmental Costs                      49,153     16,511        1,197      4,254       4,668        52,160        9,088           137,031        266,292
    Public Costs                                893,846    991,121       50,188     71,713      53,338     1,517,118      226,728         3,804,052      3,247,457
       Total Program Costs                      942,999  1,007,632       51,385     75,967      58,006     1,569,278      235,816         3,941,083      3,513,749
    Intragovernmental Earned Revenue             (3,860)    (1,014)         (90)    (5,912)       (774)     (235,452)        (613)         (247,715)      (346,333)
    Public Earned Revenue                          (945)      (360)         (23)   (28,529)        (78)         (665)        (150)           (30,750)     (137,735)
       Total Earned Revenue                      (4,805)    (1,374)        (113)   (34,441)       (852)     (236,117)        (763)         (278,465)      (484,068)
 Net Program Costs                             938,194 1,006,258        51,272     41,526      57,154     1,333,161      235,053         3,662,618      3,029,681
                                                                                                                                           (continued on next page)




92                    USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
                                 INTRAGOVERNmENTAL COSTS AND ExCHANGE REVENUE
                                           BY RESPONSIBILITY SEGmENT
                                           For the Years Ended September 30, 2008 and 2007
                                                             (In Thousands)
                                                                                                              Latin
                                                     Asia &                            Europe                America
                                                     middle                              &         Global       &           2008         2007
Objective                               Africa        East       DCHA      EGAT        Eurasia     Health   Caribbean       Total        Total

Economic Growth
  Intragovernmental Costs                   8,588     29,547         181     94,787       4,127         —       4,186        141,416       178,937
  Public Costs                            366,575  1,484,963       5,765 237,426         83,044         —     177,876      2,355,649     2,924,574
     Total Program Costs                  375,163  1,514,510       5,946 332,213         87,171         —     182,062      2,497,065     3,103,511
  Intragovernmental Earned Revenue           (952)    (2,615)         (13) (229,668)        111         —        (439)      (233,576)       (6,018)
  Public Earned Revenue                      (233)      (830)           (3) 101,134         (63)        —        (108)        99,897       (96,598)
     Total Earned Revenue                  (1,185)    (3,445)         (16) (128,534)         48         —        (547)      (133,679)     (102,616)
Net Program Costs                        373,978 1,511,065         5,930 203,679        87,219          —    181,515      2,363,386     3,000,895

Humanitarian Assistance
  Intragovernmental Costs                    160       13,750      36,061       —          174          —        561          50,706        57,438
  Public Costs                             1,527      188,709     527,971 (181,080)      2,857          —      3,728         543,712     1,332,203
     Total Program Costs                   1,687      202,459     564,032 (181,080)      3,031          —      4,289         594,418     1,389,641
  Intragovernmental Earned Revenue             (3)       (315)    (11,691)      —           (17)        —         (16)       (12,042)       (2,865)
  Public Earned Revenue                        (1)        (77)       (269)      —            (4)        —          (4)          (355)         (722)
     Total Earned Revenue                      (4)       (392)    (11,960)      —           (21)        —         (20)       (12,397)       (3,587)
Net Program Costs                          1,683     202,067     552,072 (181,080)       3,010          —      4,269        582,021     1,386,054

Operating Unit management
  Intragovernmental Costs                    2,921        356    1,738    1,583        —          —        146                  6,744      17,873
  Public Costs                              15,067     14,621    8,701    2,349    8,606          —      2,418                 51,763      99,489
     Total Program Costs                    17,988     14,977   10,439    3,932    8,606          —      2,564                 58,507     117,362
  Intragovernmental Earned Revenue             (49)       (87)      (17)     (24)     (27)        —         (10)                 (109)       (133)
  Public Earned Revenue                        (12)       (21)        (4)     (6)      98         —          (2)                  (53)        (77)
     Total Earned Revenue                      (61)      (108)      (21)     (30)      71         —         (12)                 (162)       (210)
Net Program Costs                          17,927     14,869    10,418    3,902    8,677          —      2,552                58,345     117,152
Net Costs of Operations                $1,550,461 $4,208,278 $ 741,987 $ 73,877 $393,831 $ 1,333,161 $ 619,712           $ 8,921,307 $ 9,295,894




                                                     USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                                   93
NOTE 16. SCHEDULE Of COST BY RESPONSIBILITY SEGmENTS

The Schedule of Costs by Responsibility                         directly support the Agency goals while                            the Technical Bureaus. The Geographic
Segment categorizes costs and revenues by                       the remaining bureaus and offices support                          Bureaus includes:
Objectives, Program Areas and Responsi                          the operations of these bureaus. To report
bility Segment.                                                 the full cost of program outputs, the                              Africa; Asia and Middle East, Latin
                                                                cost of support bureaus and offices are                            America and the Caribbean and Europe
A responsibility segment is the                                 allocated to the outputs of the geographic                         and Eurasia. Effective in FY 2008 Asia
component that carries out a mission or                         and technical bureaus. Intra-agency elim                           and Near East bureau has been reor
major line of activity, and whose managers                      inations are allocated to Program Areas to                         ganized as Asia and Middle East. The
report directly to top management. The                          reflect total costs. The FY 2008 Statement                         Technical Bureaus are the Democracy,
geographic and technical bureaus of                             of Net Cost major responsibility segments                          Conflict, and Humanitarian Assistance
USAID (below) meet the criteria of a                            are (i) the Geographic Bureaus and (ii)                            (DCHA); Economic Growth, Agriculture,
responsibility segment. These bureaus                                                                                              and Trade (EGAT) and Global Health.


                                              SCHEDULE Of COSTS BY RESPONSIBILITY SEGmENT
                                                                        For the Year Ended September 30, 2008
                                                                                     (In Thousands)
                                                                                  Asia &                                                                        Latin
                                                                                  middle                                         Europe &        Global       America &     Consolidated
Objective                                                      Africa              East           DCHA          EGAT              Eurasia        Health       Caribbean        Total

Peace and Security
  Counter-Terrorism
     Gross Costs                                           $     5,007        $      2,644    $     996     $          –     $          –    $            –   $        –    $     8,647
        Less: Exchange Revenues                                         (9)             (1)           (3)              –                –                 –            –             (13)
        Net Program Costs                                        4,998               2,643          993                –                –                 –            –          8,634
     Combating Weapons of Mass Destruction (WMD)
       Gross Costs                                                      –               3           996                –                –                 –            –            999
        Less: Exchange Revenues                                         –               –             (3)              –                –                 –            –              (3)
        Net Program Costs                                               –               3           993                –                –                 –            –            996
     Stabilization Operations and Security Sector Reform
        Gross Costs                                             13,855             256,789         4,629               –            1,444                 –        9,793        286,510
        Less: Exchange Revenues                                    (40)               (314)          (14)              –               (8)                –        (108)           (484)
        Net Program Costs                                       13,815             256,475         4,615               –            1,436                 –        9,685        286,026
     Counter-Narcotics
       Gross Costs                                                 155             198,558          996                –              393                 –       41,089        241,191
        Less: Exchange Revenues                                         (1)           (422)           (3)              –               (2)                –        (359)           (787)
        Net Program Costs                                          154             198,136          993                –              391                 –       40,730        240,404
     Transnational Crime
        Gross Costs                                              1,596              14,679          996          1,468              2,200                 –        2,440         23,379
        Less: Exchange Revenues                                         (4)            (55)           (3)          (11)                67                 –           (6)            (12)
        Net Program Costs                                        1,592              14,624          993          1,457              2,267                 –        2,434         23,367
     Conflict Mitigation and Reconciliation
       Gross Costs                                              24,116             106,848        44,174          710              67,498                 –       42,906        286,252
        Less: Exchange Revenues                                    (64)               (164)         (109)              (6)           (373)                –        (148)           (864)
        Net Program Costs                                       24,052             106,684        44,065          704              67,125                 –       42,758        285,388
        Total Peace & Security                             $ 44,611           $ 578,565       $ 52,652      $    2,161       $     71,219    $            –   $ 95,607      $ 844,815
                                                                                                                                                                    (continued on next page)




94                         USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
                                        SCHEDULE Of COSTS BY RESPONSIBILITY SEGmENT
                                                                 For the Year Ended September 30, 2008
                                                                              (In Thousands)
                                                                      Asia &                                                          Latin
                                                                      middle                               Europe &      Global     America &    Consolidated
Objective                                               Africa         East        DCHA         EGAT        Eurasia      Health     Caribbean       Total

Governing Justly and Democratically
  Rule of Law and human Rights
     Gross Costs                                           9,801        87,851        3,977      2,542       8,052           —        31,150         143,373
     Less: Exchange Revenues                                 (27)         (210)          (9)       (21)         21           —          (127)           (373)
     Net Program Costs                                     9,774        87,641        3,968      2,521       8,073           —        31,023         143,000
  Good Governance
     Gross Costs                                          78,799       551,606       17,655        813      70,288           —        37,445         756,606
     Less: Exchange Revenues                                (285)         (945)         (47)        (7)       (545)          —          (133)         (1,962)
     Net Program Costs                                    78,514       550,661       17,608        806      69,743           —        37,312         754,644
  Political Competition and Consensus-Building
     Gross Costs                                          41,460        76,408       15,444         —       21,687           —        12,998         167,997
     Less: Exchange Revenues                                (131)         (154)         (29)        —         (164)          —           (42)           (520)
     Net Program Costs                                    41,329        76,254       15,415         —       21,523           —        12,956         167,477
  Civil Society
     Gross Costs                                          44,584       181,155       32,745        364      67,609           —        19,489         345,946
     Less: Exchange Revenues                                (133)         (257)         (93)        (2)       (396)          —           (64)           (945)
     Net Program Costs                                    44,451       180,898       32,652        362      67,213           —        19,425         345,001
     Total Governing Justly and
         Democratically                                 174,068       895,454        69,643      3,689     166,552           —      100,716       1,410,122

Investing in People
   health
     Gross Costs                                          740,110      554,856        7,163      1,621      12,685     1,569,277     154,769       3,040,481
     Less: Exchange Revenues                               (4,174)        (552)         (11)       (11)       (569)     (236,116)       (508)       (241,941)
     Net Program Costs                                    735,936      554,304        7,152      1,610      12,116     1,333,161     154,261       2,798,540
   Education
     Gross Costs                                          179,773      280,730       19,927     38,518      22,910           —        66,011         607,869
     Less: Exchange Revenues                                 (573)        (530)         (47)      (285)       (148)          —          (145)         (1,728)
     Net Program Costs                                    179,200      280,200       19,880     38,233      22,762           —        65,866         606,141
   Social and Economic Services and Protection for Vulnerable Populations
     Gross Costs                                           23,116      172,047       24,297      35,826     22,411            —      15,036          292,733
     Less: Exchange Revenues                                  (58)        (293)          (57)   (34,143)      (135)           —        (110)         (34,796)
     Net Program Costs                                     23,058      171,754       24,240       1,683     22,276            —      14,926          257,937
     Total Investing in People                           938,194 1,006,258           51,272     41,526      57,154     1,333,161    235,053       3,662,618

Economic Growth
  Macroeconomic Foundation for Growth
     Gross Costs                                             360       372,988          132     70,584       (5,601)         —         8,366         446,829
     Less: Exchange Revenues                                 (29)         (910)          —      (1,595)         (29)         —           (37)         (2,600)
     Net Program Costs                                       331       372,078          132     68,989       (5,630)         —         8,329         444,229
  Trade and Investment
     Gross Costs                                          49,016       108,265          670      7,812      11,601           —        37,494         214,858
     Less: Exchange Revenues                                (201)         (202)          (2)       (61)        (76)          —          (140)           (682)
     Net Program Costs                                    48,815       108,063          668      7,751      11,525           —        37,354         214,176
                                                                                                                                         (continued on next page)




                                                                    USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                                 95
                                          SCHEDULE Of COSTS BY RESPONSIBILITY SEGmENT
                                                           For the Year Ended September 30, 2008
                                                                        (In Thousands)
                                                                Asia &                                                             Latin
                                                                middle                                 Europe &      Global      America &    Consolidated
Objective                                         Africa         East         DCHA         EGAT         Eurasia      Health      Caribbean       Total

     Financial Sector
         Gross Costs                                 8,654        39,215          576      (39,207)       2,424           —          5,914         17,576
         Less: Exchange Revenues                       (26)           35           (2)       4,939          208           —            (15)         5,139
         Net Program Costs                           8,628        39,250          574      (34,268)       2,632           —          5,899         22,715
     Infrastructure
         Gross Costs                               56,325        366,135          563       23,054       14,208           —          3,813        464,098
         Less: Exchange Revenues                     (137)        (1,049)          (2)        (162)         (40)          —            (13)        (1,403)
         Net Program Costs                         56,188        365,086          561       22,892       14,168           —          3,800        462,695
     Agriculture
         Gross Costs                              150,462        139,362          987      128,357        6,847           —         24,549        450,564
         Less: Exchange Revenues                     (477)          (323)          (3)      (1,102)         (54)          —            (65)        (2,024)
         Net Program Costs                        149,985        139,039          984      127,255        6,793           —         24,484        448,540
     Private Sector Competitiveness
         Gross Costs                               27,656        314,618         1,721       7,412       48,608           —         19,050        419,065
         Less: Exchange Revenues                      (68)          (428)           (4)        (58)        (244)          —            (48)          (850)
         Net Program Costs                         27,588        314,190         1,717       7,354       48,364           —         19,002        418,215
     Economic Opportunity
         Gross Costs                               15,814        127,812         1,210      47,833        2,625           —         19,828        215,122
         Less: Exchange Revenues                      (46)          (334)           (4)       (332)         (23)          —            (61)          (800)
         Net Program Costs                         15,768        127,478         1,206      47,501        2,602           —         19,767        214,322
     Environment
         Gross Costs                               66,875    46,115                88       86,367        6,460           —        63,048         268,953
         Less: Exchange Revenues                     (200)     (234)


                                                                         AT E D    —      (130,162)         305           —          (168)       (130,459)




                                                                     UPD
         Net Program Costs                         66,675    45,881                88      (43,795)       6,765           —        62,880         138,494




                                             NOT
         Total Economic Growth                    373,978 1,511,065             5,930     203,679        87,219           —       181,515      2,363,386

Humanitarian Assistance
  Protection,Assistance and Solutions
     Gross Costs                                      349        198,836       507,223          —         1,127           —          2,434        709,969
     Less: Exchange Revenues                            1           (376)      (11,812)         —            (9)          —            (14)       (12,210)
     Net Program Costs                                350        198,460       495,411          —         1,118           —          2,420        697,759
  Disaster Readiness
     Gross Costs                                     1,338         3,623        56,721    (181,080)       1,788           —          1,855       (115,755)
     Less: Exchange Revenues                            (5)          (16)         (148)         —           (12)          —             (6)          (187)
     Net Program Costs                               1,333         3,607        56,573    (181,080)       1,776           —          1,849       (115,942)
  Migration Management
     Gross Costs                                       —              —             88          —          117            —            —             205
     Less: Exchange Revenues                           —              —             —           —           (1)           —            —              (1)
     Net Program Costs                                 —              —             88          —          116            —            —             204
     Total Humanitarian
        Assistance                                  1,683       202,067       552,072     (181,080)       3,010           —         4,269        582,021

Operating Unit management
  Cross-cutting Management and Staffing
    Gross Costs                                     17,988    14,977            10,440   3,932            8,605           —         2,564          58,507
    Less: Exchange Revenues                            (61)     (108)              (22)     (30)             71           —            (12)          (162)
    Net Program Costs                               17,927    14,869            10,418   3,902            8,676           —         2,552          58,345
Net Cost of Operations                         $1,550,461 $4,208,278        $ 741,987 $ 73,877        $ 393,830    $1,333,161   $ 619,712     $8,921,307



96                      USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
NOTE 17. STATEmENT Of BUDGETARY RESOURCES

The Statement of Budgetary Resources                   September 30, 2008 and 2007. USAID’s              D. Permanent Indefinite
presents information about total                       total budgetary resources were $15.3              Appropriations:
budgetary resources available to USAID                 billion and $16.8 billion for the years
and the status of those resources, as of               ended September 30, 2008 and 2007.                USAID has permanent indefinite appro
                                                                                                         priations relating to specific Federal
A. Apportionment Categories of Obligations Incurred:                                                     Credit Reform Program and Liquidating
                                                                                                         appropriations. USAID is authorized
    APPORTIONmENT CATEGORIES Of OBLIGATIONS INCURRED                                                     permanent indefinite authority for Federal
                                              (In Thousands)                                             Credit Reform Program appropriations
                                                                                                         for subsidy reestimates and Federal Credit
                                                                        2008                2007
                                                                                                         Reform Act of 1990. At year-end FY 08,
 Category A, Direct                                                 $     769,447       $     745,601
                                                                                                         there is $1,616,689 billion in availability
 Category B, Direct                                                      8,699,827          10,846,162
                                                                                                         related to Federal Credit Reform Program
 Category A, Reimbursable                                                  11,793              11,992    and Liquidating appropriations.
 Category B, Reimbursable                                                 316,837             359,426
 Total                                                              $   9,797,904       $ 11,963,181
                                                                                                         E. Legal Arrangements
                                                                                                         Affecting the Use of
B. Borrowing Authority, End of Period                                                                    Unobligated Balances:
and Terms of Borrowing Authority Used:
                                                                                                         Division A, Title VII, Section 611 found
USAID FY 2008 borrowing authority                      authorized under the Federal Credit               on page 474 of H. R. 2764, known as the
was $3.3 million for credit financing                  Reform Act of 1990 (Title XIII, Subtitle          ‘‘Consolidated Appropriations Act, 2008’’
activities, the Agency did not have any                B, P.L. 101-508), and is used to finance          and signed into law as P.L.110-161,
credit financing activities for FY 2007.               obligations during the current year, as           provides to USAID extended authority
Borrowing Authority is indefinite and                  needed.                                           to obligate funds. USAID’s appro
                                                                                                         priations acts for years have consistently
                                                                                                         provided essentially similar authority.
C. Adjustments to Obligated Balance                                                                      It is commonly known as “511/517”
brought foward of Budgetary Resources:                                                                   authority, a name that is based on refer
                                                                                                         ences to the sections of the previous
The FY 2008 Statement of Budgetary                     prior period error consisted of recording         appropriations acts. Under this authority
Resources, Obligated Balance Brought                   undelivered orders unpaid instead of unde         funds shall remain available for obliga
Foward, has been adjusted by $100.9                    livered orders prepaid. The affects of that       tion for an extended period if such funds
million due to a prior period error. This              posting error is displayed below.                 are obligated within their initial period
                                                                                                         of availability. Any subsequent recoveries
    ADJUSTmENTS TO OBLIGATED BALANCE BROUGHT fOwARD                                                      (deobligations) of these funds become
                                                                                                         unobligated balances that are available for
                 Of BUDGETARY RESOURCES:
                                                                                                         reporogramming by USAID (subject to
                                              (In Thousands)
                                                                                                         OMB approval through the apportion
                                                                                            TOTAL        ment process).
 2007 Unpaid Obligated Balance, Net, End of Period                                      $ (14,422,033)
 Prior Period Adjustment - Movement Unpaid to Paid                                           100,881
 Adjusted 2008 Obligated Balance, Net: Unpaid Obligations, Brought Forward, October 1   $ (14,321,152)
                                                                                                         f. Undelivered Orders:
                                                                                                         Undelivered Orders for the periods ended
                                                                                                         September 30, 2008 and 2007 were $12.1
                                                                                                         and $12.1 billion.




                                                               USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                          97
G. Difference between the Statement of Budgetary
Resources and the Budget of the U.S. Government:
There are no material differences between                  Budget with actual numbers for 2010 has               FY 2008 reported results when the budget
the Statement of Budgetary Resouces                        not yet been published. USAID expects                 becomes available in February 2009.
for FY 2007 and the President’s Budget                     no material difference between the Presi
submission for FY 2009. The President’s                    dent’s Budget “actual” column and the

                              DIffERENCE BETwEEN THE STATEmENT Of BUDGETARY RESOURCES AND
                                            THE BUDGET Of THE U.S. GOVERNmENT
                                                                             (In Thousands)
                                                                      Budgetary                                        Offsetting
                           fY2008                                     Resources                   Obligations          Receipts              Net Outlays
 Combined Statement of Budgetary Resources                        $       15,316,659          $     9,797,904      $     1,361,154       $    10,182,942
 Difference #1: Funds Reported by Other Federal Entities                   6,168,870                5,720,949                    2             3,204,410
 Difference #2:Adjustments to Unliquidated Obligations                        (9,800)                 (23,988)                   –                     –
 Difference #3:Adjustments to Obligations                                     (2,286)                       –                    –                     –
 Difference #4: Credit Financing and Suspense                               (302,187)                 (63,019)             (95,631)              84,319
 Rounding Differences**
 Budget of the U.S. Government                                    $       21,171,256          $    15,431,846      $     1,265,525       $    13,471,671


NOTE 18. RECONCILIATION Of OBLIGATIONS
INCURRED TO NET COST Of OPERATIONS
USAID presents the Statement of Net                        The Federal Financial Accounting                      net cost of operations. The objective of
Cost using the accrual basis of accounting.                Standard No. 7 requires “a reconciliation             this information is to categorize the
This differs from the obligation-based                     of proprietary and budgetary informa-                 differences between budgetary and
measurement of total resources supplied,                   tion in a way that helps users relate the             financial (proprietary) accounting.
both budgetary and from other sources,                     two.” The focus of this presentation is to
on the Statement of Budgetary Resources.                   reconcile budgetary net obligations to the

                   RECONCILIATION Of OBLIGATIONS INCURRED TO NET COST Of OPERATIONS
                                                         For the Years Ended September 30, 2008 and 2007
                                                                           (In Thousands)
                                                                                                                          2008                  2007
 Resources Used to finance Actvities:
     Budgetary Resources Obligated
        Obligations Incurred                                                                                           $ 9,797,904           $ 11,963,181
        Spending authority from offsetting collections                                                                    (1,361,154)          (1,203,063)
        Change in Unfilled Customer Orders                                                                                   52,966               (58,516)
        Downward Adjustments of Obligations                                                                                (211,230)             (199,264)
        Offsetting Receipts                                                                                                 179,387                25,925
     Net Obligations                                                                                                      8,457,873            10,528,263
     Other resources used to finance activities                                                                              19,431                21,857
     Resources Used to Finance Activities                                                                                 8,477,304            10,550,120
     Resources Used to Finance items not part of net cost of operations                                                     367,369            (1,389,933)
 Total Resources Used to Finance Net Cost of Operations                                                                   8,844,673             9,160,187

 Components of the Net Cost of Operations:
     Components of Net Cost of Operations that will require or generate resources in future periods                          37,211                47,009
     Components of Net Cost of Operations that will not require or generate resources                                        39,423                88,698
 Net Cost of Operations                                                                                                $ 8,921,307           $ 9,295,894

98                     USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
STATEMENT OF BUDGETARY
RESOURCES

                  REqUIRED SUPPLEmENTARY INfORmATION: SCHEDULE Of BUDGETARY RESOURCES
                                       For the period ended September 30, 2008
                                                                                      (In Thousands)
                                                                                                                                           Credit-                 Parent       Consolidated
                                                   Operating                                   Program                                    financing    Other        fund           Total
                                                     1000        1010         1021         1035        1037        1093        1095

Budgetary Resources:
Unobligated Balance, Brought Forward, October 1    $ 67,428     $262,107 $ 305,004        $128,558 $1,552,330     $148,358    $131,693 $1,582,317     $535,656     $140,678       $4,854,129
Recoveries of Prior Year Unpaid Obligations          22,955       4,467         19,505       6,896      56,994       5,214      16,171           2      21,943       57,083         211,230
Budget Authority:
   Appropriation                                    806,300     295,950      1,636,881     672,350    5,382,324    399,735            -           -    285,101              -      9,478,641
   Borrowing Authority                                      -           -            -            -           -           -           -       3,313            -            -          3,313
   Spending Authority from
      Offsetting Collections:
       Earned:
            Collected                                 7,034             9         527         146        7,993            -      4,419      197,609   1,141,770       1,647        1,361,154
       Change in Unfilled Customer Orders:
            Without Advance from Federal Sources      2,268             -        2,065         (67)           -           -           -           -     (57,232)            -        (52,966)
   Subtotal                                         815,602     295,959      1,639,473     672,429    5,390,317    399,735       4,419      200,922   1,369,639       1,647       10,790,142
Nonexpenditure Transfers, Net,                       10,944      (64,352)      (13,514)      1,251    (776,164)     21,919            -           -    404,333      770,135         354,552
  Anticipated and Actual
Permanently Not Available                             (6,006)     (4,715)      (14,226)     (4,844)   (157,664)     (9,157)           -           -   (696,651)        (131)        (893,394)
Total Budgetary Resources                          $910,923     $493,466 $1,936,242 $804,290 $6,065,813           $566,069    $152,283 $1,783,241 $1,634,920       $969,412      $15,316,659


Status of Budgetary Resources:
Obligations Incurred:
   Direct                                           736,202     306,035      1,598,065     589,045    4,275,973    307,911     116,377      166,533    647,252      725,881        9,469,274
   Reimbursible                                       9,303             9        2,591         79        7,993            -      4,419          18     304,018         200          328,630
   Subtotal                                         745,505     306,044      1,600,656     589,124    4,283,966    307,911     120,796      166,551    951,270      726,081        9,797,904
Unobligated Balance:
   Apportioned                                       63,854      85,706        351,006     152,188    1,328,672    202,807            -       7,599    112,966      222,926        2,527,724
   Subtotal                                          63,854      85,706        351,006     152,188    1,328,672    202,807            -       7,599    112,966      222,926        2,527,724
Unobligated Balance Not Available                   101,564     101,716        (15,420)     62,978     453,175      55,351      31,487    1,609,091    570,684       20,405        2,991,031
Total, Status of Budgetary Resources               $910,923     $493,466 $1,936,242 $804,290 $6,065,813           $566,069    $152,283 $1,783,241 $1,634,920       $969,412      $15,316,659

                                                                                                                                                                    (continued on next page)




                                                                            USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                                                   101
      REqUIRED SUPPLEmENTARY INfORmATION: SCHEDULE Of BUDGETARY RESOURCES (continued)
                                For the period ended September 30, 2008
                                                                                   (In Thousands)
                                                                                                                                          Credit-                  Parent       Consolidated
                                                 Operating                                  Program                                      financing    Other         fund           Total
                                                   1000        1010        1021        1035        1037         1093         1095

Change in Obligated Balance:
Obligated Balance, Net
   Unpaid Obligations, Brought Forward,           $230,425    $275,883 $2,575,674 $559,100 $5,373,288 $427,618             $2,705,983      $28,669    $749,204    $1,395,308     $14,321,152
   October 1
   Less: Uncollected Customer Payments from           (275)           -       (107)       (244)           -            -         (994)            -    (72,854)        (536)         (75,010)
   Federal Sources, Brought Forward, October 1
   Total Unpaid Obligated Balance, Net             230,150    275,883     2,575,567    558,856    5,373,288    427,618     2,704,989        28,669     676,350    1,394,772       14,246,142
Obligations Incurred Net (+/-)                     745,505    306,044     1,600,655    589,124    4,283,966    307,910       120,796       166,552     951,270     726,082         9,797,904
Less: Gross Outlays                               (688,719) (243,405) (1,367,487) (459,223) (3,282,189)        (353,503)   (1,702,112)    (195,914)   (967,328)    (923,063)     (10,182,943)
Less: Recoveries of Prior Year Unpaid              (22,956)     (4,467)     (19,505)    (6,896)     (56,994)     (5,214)      (16,171)          (2)    (21,942)     (57,083)        (211,230)
   Obligations,Actual
Change in Uncollected Customer Payments from        (2,268)           -      (2,065)       67             -            -            -             -     57,232              -        52,966
   Federal Sources (+/-)
Obligated Balance, Net, End of Period
   Unpaid Obligations                              264,255    334,055     2,789,337    682,106    6,318,071    376,811     1,108,496          (695)    711,204    1,141,244       13,724,884
   Less: Uncollected Customer Payments from         (2,543)           -      (2,172)      (178)           -            -         (994)            -    (15,622)        (536)         (22,044)
      Federal Sources
Total, Unpaid Obligated Balance, Net,              261,712    334,055     2,787,165    681,928    6,318,071    376,811     1,107,502          (695)    695,582    1,140,708       13,702,840
   End of Period

Net Outlays:
   Gross Outlays                                   688,719    243,405     1,367,487    459,223    3,282,189    353,503     1,702,111       195,914     967,328     923,063        10,182,942
   Less: Offsetting Receipts                        (7,034)         (9)       (527)       (146)      (7,993)           -       (4,419)    (197,609) (1,141,770)      (1,647)      (1,361,154)
   Less: Distributed Offsetting Receipts                  -           -           -           -           -            -            -             -   (179,387)             -       (179,387)

Net Outlays                                       $681,685    $243,396 $1,366,960 $459,077 $3,274,196 $353,503             $1,697,692      $(1,695) $(353,829)    $922,863        $8,642,401




102                         USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION
mAJOR fUNDS                                                 OTHER fUNDS                                              ALLOCATIONS TO OTHER AGENCIES
Operating funds                                             Operating funds                                          1000 Operating Expenses of USAID
1000 Operating Expenses of USAID                            0300 Capital Investment Fund (CIF)                       1010 Special Assistance Initiatives
Program funds                                               1007 Operating Expenses of USAID Inspector General
                                                                                                                     1014 Africa Development Assistance
1010 Special Assistance Initiatives                         1036 Foreign Service Retirement and Disability Fund
                                                                                                                     1021 Development Assistance
1021 Development Assistance                                 Program funds
1035 International Disaster Assistance                      1012 Sahel Development Program                           1027 Transition Initiatives
1037 Economic Support Fund                                  1014 Africa Development Assistance                       1030 New Global Initiatives Fund – 2007 Appropriations
1093 Assistance for the N.I.S. of the Former Soviet Union   1023 Food and Nutrition Development Assistance                Carry Over

1095 Child Survival and Disease Programs Funds              1024 Population and Planning & health Dev.Asst.          1031 New Global Initiatives Fund – Current Funding
                                                            1025 Education and human Resources, Dev.Asst.            1032 Peacekeeping Operations
CREDIT-fINANCING fUNDS                                      1027 Transition Initiatives                              1035 International Disaster Assistance
                                                            1028 Global Fund to Fight hIV / AIDS
4119 Israel Guarantee Financing Fund                                                                                 1037 Economic Support Fund
                                                            1029 Tsunami Relief and Reconstruction Fund
4137 Direct Loan Financing Fund                                                                                      1093 Assistance for the N.I.S. of the Former Soviet Union
                                                            1038 Central American Reconciliation Assistance
4266 DCA Financing Fund
                                                            1040 Sub-Saharan Africa Disaster Assistance              1095 Child Survival and Disease Programs Funds
4342 MSED Direct Loan Financing Fund
                                                            1096 Latin American/Caribbean Disaster Recovery          1096 International Organizations and Programs
4343 MSED Guarantee Financing Fund
                                                            1500 Demobilization and Transition Fund                  1500 Demobilization and Transition Fund
4344 UE Financing Fund
                                                            Trust funds
4345 Ukraine Financing Fund
                                                            8342 Foreign Natl. Employees Separation Liability Fund
4491 Egypt Guarantee Financial Fund
                                                            8502 Tech.Assist. - U.S. Dollars Advance from Foreign
                                                            8824 Gifts and Donations
                                                            Credit Program funds
                                                            0400 MSED Program Fund
                                                            0401 UE Program Fund
                                                            0402 Ukraine Program Fund
                                                            1264 DCA Program Fund
                                                            4103 Economic Assistance Loans - Liquidating Fund
                                                            4340 UE Guarantee Liquidating Fund
                                                            4341 MSED Direct Loan Liquidating Fund
                                                            5318 Israel Admin Expense Fund
                                                            Revolving funds
                                                            4175 Property Management Fund
                                                            4513 Working Capital Fund
                                                            4590 Acquisition of Property, Revolving Fund




                                                                    USAID FY 2008 AgencY FInAncIAl report | FINANCIAL SECTION                                                103
